<html>
<title> - EXAMINING THE POLICIES AND PRIORITIES OF THE U.S. DEPARTMENT OF EDUCATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









                       EXAMINING THE POLICIES AND
                           PRIORITIES OF THE
                      U.S. DEPARTMENT OF EDUCATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 24, 2016

                               __________

                           Serial No. 114-39

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-731 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                    
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 24, 2016................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    King Jr., Hon. John B., Acting Secretary, U.S. Department of 
      Education, Washington, DC..................................     7
        Prepared statement of....................................     9

Additional Submissions:
    Rokita, Hon. Todd, a Representative in Congress from the 
      State of Indiana:
        Letter dated February 24, 2016 from Consumer Bankers 
          Association (CBA)......................................    33
    Questions submitted for the record by:
        Allen, Hon. Rick, a Representative in Congress from the 
          State of Georgia.......................................    67
        Barletta, Hon. Lou, a Representative in Congress from the 
          State of Pennsylvania..................................    65
        Byrne, Hon. Bradley, a Representative in Congress from 
          the State of Alabama...................................    66
        Bishop, Hon. Michael D., a Representative in Congress 
          from the State of Michigan.............................    65
        Carter, Hon. Buddy, a Representative in Congress from the 
          State of Georgia.......................................    66
        Foxx, Hon. Virginia, a Representative in Congress from 
          the State of North Carolina............................    66
        Fudge, Hon. Marcia L., a Representative in Congress from 
          the State of Ohio......................................    66
        Chairman Kline...........................................    63
        Messer, Hon. Luke, a Representative in Congress from the 
          State of Indiana.......................................    81
        Mr. Rokita...............................................    67
        Thompson, Hon. Glenn, a Representative in Congress from 
          the State of Pennsylvania..............................    68
        Walberg, Hon. Tim, a Representative in Congress from the 
          State of Michigan......................................    69
    Secretary King's responses to questions submitted for the 
      record.....................................................    70

 
                 EXAMINING THE POLICIES AND PRIORITIES
                  OF THE U.S. DEPARTMENT OF EDUCATION

                              ----------                              


                      Wednesday, February 24, 2016

                     U.S. House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:03 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Foxx, Roe, Thompson, 
Walberg, Salmon, Guthrie, Rokita, Heck, Messer, Byrne, Brat, 
Carter, Bishop, Grothman, Curbelo, Stefanik, Allen, Scott, 
Hinojosa, Davis, Grijalva, Courtney, Fudge, Polis, Wilson of 
Florida, Bonamici, Takano, Jeffries, Clark, Adams, DeSaulnier.
    Staff Present: Janelle Belland, Coalitions and Members 
Services Coordinator; James Forester, Professional Staff 
Member; Emmanual Guillory, Professional Staff Member; Tyler 
Hernandez, Press Secretary; Amy Raaf Jones, Director of 
Education and Human Resources Policy; Nancy Locke, Chief Clerk; 
Dominique McKay, Deputy Press Secretary; Brian Newell, 
Communications Director; Krisann Pearce, General Counsel; Jenny 
Prescott, Professional Staff Member; Clint Raine, TFA Fellow; 
Alex Ricci, Legislative Assistant; Mandy Schaumburg, Education 
Deputy Director and Senior Counsel; Emily Slack, Professional 
Staff Member; Alissa Strawcutter, Deputy Clerk; Juliane 
Sullivan, Staff Director; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Austin Barbera, Minority Staff 
Assistant; Jacque Chevalier, Minority Senior Education Policy 
Advisor; Denise Forte, Minority Staff Director; Christian 
Haines, Minority Education Policy Counsel; Brian Kennedy, 
Minority General Counsel; Saloni Sharma, Minority Press 
Assistant; Michael Taylor, Minority Education Policy Fellow; 
and Arika Trim, Minority Press Secretary.
    Chairman Kline. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    Good morning, everyone. I want to extend a warm welcome to 
the acting Secretary of Education, John King, who is with us to 
discuss the policies and priorities of the Department of 
Education. Dr. King has been at the helm of the Department 
since January and was recently nominated by the President to 
serve as the next Secretary of Education.
    And congratulations on your nomination, Dr. King.
    We understand this is the beginning of a busy week for you 
on Capitol Hill, back to the aforementioned nomination. You 
graciously agreed to join us today to speak broadly about the 
Department's priorities, and you will return tomorrow to 
discuss, specifically, the Department's efforts regarding the 
Every Student Succeeds Act.
    Replacing No Child Left Behind was a leading priority of 
this committee for many years. We are eager to learn how the 
Department plans to implement the new law in a way that adheres 
to the letter and intent of the law. While that's a 
conversation we will have in more detail tomorrow, it does 
reflect in some ways on today's hearing. In fact, as we 
consider the work that lies ahead this year, there are two 
lessons we can learn from our efforts to improve K-12 
education.
    First, the American people want commonsense reforms that 
empower individuals, not Federal bureaucrats. Families across 
the country face a number of difficult challenges, including 
stagnant wages, rising college costs, and a lack of full-time 
jobs.
    Unfortunately, the response by many in Washington is to 
call for more government, more programs, more spending, more 
rules, more regulations. We've tried this top-down approach for 
years, and it really hasn't worked. It's time we look for other 
opportunities to provide more authority and flexibility to the 
States and local communities while also ensuring a more limited 
and accountable Federal Government.
    Second, we have shown what's possible when we work together 
in good faith for the common good. We saw a problem, agreed the 
status quo wasn't working, and came together to enact a 
practical solution. Both sides brought to the table very 
different ideas and principles, but we were able to hold onto 
our principles and still find common ground. Because we did, we 
delivered real results for the American people, and they expect 
similar results in the months ahead.
    It's for these reasons many of us are disappointed with the 
President's budget request. It would provide the Department 
with tens of billions of dollars in new spending to create and 
administer new entitlement programs as well as numerous new 
competitive grant programs that put the Department in charge of 
picking winners and losers. This additional burden to the 
taxpayer would not provide students and families a more 
efficient, effective, and accountable agency. Instead, these 
dollars would be used to grow an already bloated bureaucracy.
    No doubt these proposals are well intended, but they will 
ultimately divert limited taxpayer resources away from existing 
services that are vitally important to low- and middle-income 
families.
    The American people aren't interested in continuing the 
same failed policies, but that's precisely what this budget 
would do. It doubles down on the false hope that the Federal 
Government can create the opportunity and prosperity families 
desperately need. We know there's a better way. We recently 
proved there's a better way. There are a number of issues that 
deserve our attention, such as expanding access to an 
affordable college education, improving career and technical 
education, and the successful implementation of our recent 
reforms to K-12 education.
    Dr. King, I hope we can work together on these and other 
important issues in a way that builds on our recent success by 
placing less faith in the schemes of Washington and more faith 
in the American people.
    With that, I will now recognize Ranking Member Scott for 
his opening remarks.
    [The statement of Chairman Kline follows:]

           Prepared Statement of Hon. John Kline, Chairman, 
                Committee on Education and the Workforce

    From welfare and health care to early childhood development and 
support services for older Americans, the policies the Department of 
Health and Human Services oversees affect the lives of millions of 
Americans. Conversations like this one are vitally important as we work 
to ensure the department is acting in the best interests of taxpayers 
and those in need. As we examine what programs and policies are 
working, and which ones are in need of improvement, I hope there are a 
number of areas where we can find common ground.
    Of course, there are also areas where we will ultimately agree to 
disagree, and perhaps the most prominent example is the president's 
health care law. As has been the case for nearly six years, this flawed 
law continues to hurt working families, students, and small businesses. 
It's still depressing hours and wages for low-income workers, still 
making it harder for individuals to receive the care they need, and 
still driving up health care costs.
    One Emory University professor recently wrote that his family's 
health-insurance premium is now their biggest expense - even greater 
than their mortgage. Before the health care law went into effect, this 
man was able to cover his entire family of four for less than $13,000. 
Now, the cost of insuring just him and his wife is nearly $28,000. 
That's right - twice the cost to cover half as many people. In fact, 
paying more for less is becoming a hallmark of the health care law.
    Over the years, Republicans have put forward a number of health 
care reform ideas, ones that would expand access to affordable care and 
lead to a more patient-centered health care system. We will continue to 
do so, because we firmly believe the president's health care law is 
fatally flawed and unsustainable, and more importantly, because we 
believe the American people deserve better.
    Again, I suspect we will have to agree to disagree, but as I 
mentioned, there are areas where I am hopeful we can find common 
ground.
    (More)
    Head Start, for example, currently supports nearly one million 
children at a cost of more than $9 billion annually. It's an important 
program for many low-income families. However, concerns persist that 
it's not providing children with long-term results.
    We both agree changes need to be made, but so far, we have 
different ideas on what reform should look like. The department is in 
the process of fundamentally transforming Head Start through 
regulations that will have serious consequences for the vulnerable 
families this important program serves. We, on the other hand, have 
outlined a number of key principles that we believe will strengthen the 
program based on feedback we collected from parents and providers. I 
look forward to discussing where we might be able to find middle ground 
and work together so that these children can have the solid foundation 
they need to succeed in school and in life.
    I'm also hopeful that we can work together to ensure changes to the 
Preschool Development Grants Program are implemented as Congress 
intended. The Every Student Succeeds Act reformed the program to help 
states streamline and strengthen early learning efforts. To accomplish 
this goal, Congress moved the program from the Department of Education 
to HHS, which already oversees the bulk of early learning programs. As 
you take on this responsibility, Secretary Burwell, please know we 
intend to stay engaged with the department to ensure a successful 
transition.
    Finally, the department is also responsible for helping states to 
prevent and respond to child abuse and neglect, specifically those 
outlined in the Child Abuse Prevention and Treatment Act or CAPTA. As 
I'm sure you're aware, this law provides states with resources to 
improve their child protective services systems - if they make a number 
of assurances concerning their child welfare policies. It's come to our 
attention that some states are making these assurances without putting 
the necessary policies in place. Yet, not a single state is being 
denied federal funds.
    A Reuters' investigation recently revealed the shocking and deadly 
consequences of this neglect and cast serious doubts as to whether 
basic requirements of the law are being met and enforced. In light of 
this tragic report, we wrote to you to better understand the 
department's process in reviewing and approving state plans under 
CAPTA, and I'd like to continue that discussion today. It's clear that 
the current system is failing some of our country's most vulnerable 
children and families, and something has to change.
    As you can see, we have quite a bit to cover today. These and other 
issues are vitally important to the men and women we serve, and we have 
a responsibility to ensure they are serving those individuals in the 
best way possible.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman, for holding the hearing 
today. And I know some of my colleagues were taken aback when 
the House and Senate Budget Committees declined, apparently for 
the first time ever, to invite the administration to give 
testimony about the President's budget request for FY 2017. I'm 
glad we have taken a better approach to the annual budget 
process in this committee, and I know that there are things in 
this budget that we can agree on and others that we won't agree 
on. That doesn't mean we shouldn't talk those issues out. I'm 
glad, Mr. Chairman, that we're having an opportunity to do that 
today.
    I want to welcome the acting Secretary here today as well. 
We will be seeing a lot of him this week as we hold another 
hearing tomorrow on the implementation of the Every Student 
Succeeds Act. Although he will only be in the Department for 
about a year, that has the potential of being a very 
transformational year in that it comes at the time when we 
oversee early learning, elementary and secondary education, and 
higher education in this country. I know he's up to the 
challenge, and I look forward to his testimony today.
    Our Nation's budget reflects its priorities. I think it's 
safe to say that the budget request we have before us today 
from the Department is proof that education remains a top 
priority for the Obama administration. This year's request 
includes an additional $1.3 billion, a 2 percent increase, for 
programs at the Department of Education. At the same time, 
through a combination of savings from both spending and revenue 
sides of the budget, the administration's overall budget 
request reduces the deficit from 3.3 percent of GDP to 2.6 
percent.
    Mr. Chairman, the request we have before us is, therefore, 
proof that we can increase the amount we spend on education in 
a responsible way without running higher deficits. The Federal 
investment in education is a crucial component of our national 
strength and competitiveness in the 21st century. That 
investment begins in early childhood, and this year's request 
continues to prioritize early childhood education. We can and 
should provide high-quality early childhood education for all 
4-year-olds, and this budget continues to call for us to do 
just that.
    The budget requests builds on the bipartisan work we did on 
ESSA, and most programs in the bill are at or above the levels 
authorized in that law. The budget includes multiple programs 
designed to reduce the cost of higher education, with 
particular focus on first-generation and low-income students.
    I had the honor of working with the Department last year on 
its America's College Promise proposal to make 2 years of 
community college the new norm for all students. I was happy to 
see that the budget request this year reflected modifications 
we worked on together to include first-generation students and 
minority-serving institutions as beneficiaries from the ACP 
program.
    The budget request recognizes that investing in teachers 
and lifting up the teaching profession is essential in 
improving educational outcomes nationally. If we are going to 
ensure that every child in every classroom has a highly 
effective teacher, we have to build pathways to train those 
teachers and school leaders and provide incentives necessary 
for them to take the most challenging positions where they are 
most needed.
    Now, there are some questions I have about some of the 
choices made in the budget. I believe we should do more to 
increase the maximum Pell Grant award and help to defray the 
cost of higher education, especially when we make a sizable 
profit off student loans. There are certain programs authorized 
on the ESSA that receive 30 percent or higher increases over 
negotiated authorization levels.
    On the whole, I support the President's budget, especially 
when compared to the alternative. And I say that because the 
alternative has yet to present itself. For some reason, the 
Speaker has chosen to expedite the budget process this year, 
but we still haven't seen the actual proposal from the 
majority. Last year's majority proposal included $103 billion 
in cuts in education over 10 years. That translated into 
significant cuts in Title I, funding for the Individuals with 
Disabilities Education Act, cuts in Head Start, cuts in Pell 
Grants. And if the choice is between a Republican budget like 
last year's and the President's request, I'll take the 
President's request.
    This budget season we will have tough choices to make as 
the Congress, choices that reflect our values. I think this 
budget request we have before us strikes the right balance and 
recognizes that money we spend on education comes back to the 
country many times over. We need to make crucial investments 
today if we expect to lead the world on education for decades 
to come.
    So, Mr. Chairman, thank you, and I yield back.
    [The statement of Mr. Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Thank you Chairman Kline for holding this hearing here today. I 
know I, along with many of my colleagues, were taken aback when the 
House and Senate Budget Committee Chairmen declined, for the first time 
ever, to invite the Administration to give testimony about the 
President's budget request for FY 2017. I'm glad that we have taken a 
more civil approach to the annual budget process in this committee. I 
know that there are things in this budget request that we agree with 
and others that we won't agree with, but that doesn't mean we shouldn't 
talk those issues out, so I'm glad Mr. Chairman, that we are having an 
opportunity to do that today.
    And I want to welcome Acting Secretary King here with us today as 
well. We will be seeing a lot of him this week as we hold another 
hearing tomorrow on the implementation of the Every Student Succeeds 
Act (ESSA). Although he will only be at the Department for a year, that 
has the potential to be a very transformational year when it comes to 
how we oversee early learning, elementary and secondary education, and 
higher education in this country. I know that he is up to the 
challenge, and I look forward to his testimony today.
    A nation's budget reflects its priorities. And I think it is safe 
to say that the budget request we have before us for the Department of 
Education is proof that education remains a top priority for the Obama 
Administration. This year's request includes an additional $1.3 
billion, a 2% increase, for programs at the Department of Education. At 
the same time, through a combination of savings from both the spending 
and revenue sides of the budget, the administration's overall budget 
request reduces the deficit from 3.3% of GDP to 2.6%.
    Mr. Chairman, the request we have before us today is proof we can 
increase the amount we spend on education in a responsible way without 
running higher deficits.
    Federal investment in education is a crucial component of our 
national strength and competitiveness in the 21st century.
    b That investment begins in early childhood, and this year's 
request continues to prioritize early childhood education. We can and 
should provide high-quality early childhood education to all four-year-
olds, and this budget continues to call for us to do just that.
    b The budget request builds on the bipartisan work we did on ESSA 
and most programs in that bill are at or above levels authorized in 
that law.
    b The budget includes multiple programs designed to reduce the cost 
of higher education, with a particular focus on first-generation and 
low-income students. I had the honor of working with the Department 
last year on its America's College Promise (ACP) proposal to make two 
years of community college the new normal for all students. I was happy 
to see that the budget request this year reflected modifications we 
worked on together to include first-generation students at HBCUs, 
Hispanic Serving Institutions, AANAPISIs, and other Minority Serving 
Institutions as beneficiaries from the ACP program.
    b The budget request recognizes that investing in teachers and 
lifting up the teaching profession is essential to improving 
educational outcomes nationally. If we are going to ensure that every 
child in every classroom has a highly effective teacher, we have to 
build the pathways to train those teachers and school leaders, and 
provide the incentives necessary for them to take the most challenging 
positions where they are the most needed.
    Now, there are some questions I have about some of the choices made 
in this budget. I believe that we could do more to increase the maximum 
Pell Grant award and help defray the cost of higher education, 
especially when we make a sizable profit off of student loans. There 
are certain programs authorized under ESSA that receive 30% and higher 
increases over negotiated authorization levels. But on the whole I 
support the President's budget, especially when compared to the 
alternative. I say that because the alternative has yet to present 
itself. For some reason, Speaker Ryan has chosen to expedite the budget 
process this year, but we still haven't seen a proposal from the 
Majority. Last year's Republican budget proposal included $103 billion 
in cuts to education over 10 years. That translated to significant cuts 
in Title I funding, funding for the Individuals with Disabilities 
Education Act, cuts to Head Start, and cuts to Pell Grants. If the 
choice is between a Republican budget like last year's and the 
President's request, I'll take the President's request any day of the 
week.
    This budget season we will have tough choices to make as a 
Congress, choices that will reflect our values. I think this budget 
request we have before us strikes the right balance, and recognizes 
that money we spend on education comes back to the country many times 
over. We need to make crucial investments today if expect to lead the 
world in education for decades to come. Thank you Mr. Chairman and I 
yield back.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to Committee Rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    Chairman Kline. It's now my pleasure to introduce our 
distinguished witness. Dr. John B. King, Jr. is the acting 
Secretary for the U.S. Department of Education. He was named 
acting Secretary of the Department of Education last month. 
Prior to this, he served as a principal senior adviser to the 
Department performing the duties of the deputy secretary. And 
as I mentioned earlier, he has now been officially nominated by 
the President of the United States. And it is my understanding 
that the Senate, in fact, is going to have a hearing tomorrow 
afternoon on that nomination.
    We wish you good luck with that.
    Let me ask you now, Dr. King, to please stand and raise 
your right hand.
    [Witness sworn.]
    Chairman Kline. Let the record reflect Dr. King answered in 
the affirmative -- as by the way, has every witness that we 
have ever asked to do that.
    Before I recognize you to provide your testimony, let me 
just briefly remind you and everybody about the lighting 
system. For many of us up here, this is our first hearing in 
this completely renovated hearing room, and we're, perhaps, a 
little disoriented and maybe even awed. I think maybe Mr. Brat 
is still lost. I'm not sure. Oh, no, that's not what you were -
- I thought you were talking.
    Dr. King, I'll ask you to here, in just a minute, to give 
us your testimony. The timer will come on there in front of 
you, which indicates you have 5 minutes, but as I indicated to 
you earlier, I have never, never gaveled down a witness for 
going -- certainly, not a Secretary or acting Secretary -- for 
going somewhat over. But if you can limit those remarks, then 
we can get into questions and answers. Each member here will be 
given 5 minutes to ask questions and get answers. And I will be 
a little bit more demanding on my colleagues' time than yours.
    So, Dr. King, you're recognized.

     TESTIMONY OF DR. JOHN B. KING, JR., ACTING SECRETARY, 
           DEPARTMENT OF EDUCATION, WASHINGTON, D.C.

    Mr. King. Thank you very much. Good morning. Chairman 
Kline, Ranking Member Scott, and members of the committee, 
thank you for inviting me to discuss the Department's 2017 
budget. I look forward to building on our bipartisan 
collaboration as we implement the Every Student Succeeds Act 
and solve important challenges in public education.
    This first year, we are focused on three principles: first, 
ensuring every child has the opportunity to earn an excellent 
education; second, supporting our Nation's teachers and 
elevating the teaching profession; and, third, improving 
access, affordability, and completion in higher education.
    These principles, along with my own experiences working in 
public education, inform the ideas in our 2017 budget proposal. 
Before joining the Department, I led the New York State 
Department of Education and served as the managing director of 
Uncommon Schools, a network of high-achieving charter schools. 
I began my career as a high school social studies teacher and 
cofounded one of the highest-performing middle schools in 
Massachusetts.
    I'm also the proud parent of two public school students, 
and these experiences inspire every decision that I make at the 
Department.
    While this budget is focused on the challenges ahead of us, 
I also want to acknowledge the remarkable gains we are seeing. 
High school graduation rates are at an all-time high and 
dropout rates are falling. We have the largest and most diverse 
classes enrolling and completing higher education. The numbers 
of African American and Latino college students are up by more 
than a million since 2008.
    The Department's 2017 budget builds on that progress in 
important ways. It would strengthen formula programs at the 
heart of the Every Student Succeeds Act and invest in next-
generation high schools and career and technical education. It 
ensures that our youngest learners get a strong start in school 
through President Obama's landmark Preschool for All initiative 
and capitalizes on teacher leadership by helping them achieve 
their ideas in the schools where they are needed most, and 
brings computer science to every classroom in this country.
    Through the new Stronger Together program, we would help 
school and district leaders create more high-achieving, 
socioeconomically diverse classrooms and schools. All students 
benefit from learning with classmates from different economic 
backgrounds, and all students should have that opportunity.
    The programs in our 2017 budget would also make higher 
education more affordable and help more students earn their 
college degrees. America's College Promise would make community 
college free for all students, an idea that is proving its 
potential in communities from Tennessee to Long Beach, 
California. This budget would also drive innovations in Pell 
Grants by supporting students that take summer classes and at 
least 15 credits per semester and reward institutions with high 
completion rates.
    We need new strategies for helping students earn their 
degrees, and through First in the World and the HBCU Innovation 
for Completion Fund, we would help colleges translate their 
ideas into better outcomes for their students.
    This budget leverages local leadership, the source of 
strength of our Nation's education system, to help more 
students succeed. But I also know that there are places where 
leaders are not living up to their responsibilities.
    Last year, I visited a community where five local schools 
had become socioeconomically and racially isolated and under-
resourced failure factories, to borrow a term from a local 
newspaper. There, we met desperate families, dejected teachers, 
and students that questioned whether the adults in their lives 
really care.
    I contrast that visit with the excellent schools I've seen 
in communities from Houston to Wilmington to Miami. I've met 
countless engaged students who know that, thanks to the 
educators in their lives, their destiny will not be determined 
by where they were born.
    The Department's 2017 budget would support local and State-
led efforts to create many more places where students know 
their education and their future is in their own hands. I look 
forward to discussing these ideas with you in more detail and 
would be happy to answer your questions. Thank you.
    [The testimony of Mr. King follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
        
    Chairman Kline. Thank you, Dr. King. Less than 5 minutes. I 
don't know that you get any extra points for that, but well 
done.
    I had discussed this very briefly with you before. It's 
been a nagging concern, I guess, to me, year after year. When 
we look at the President's budget year after year, there is 
little or no increase suggested in funding for IDEA, and this 
year turns out to be the same thing. If I look at the 
President's budget, I can give many examples here, the budget 
proposes a new billion-dollar mandatory program called Respect: 
Best Job in the World. It proposes $120 million for a new 
Stronger Together grant program, requests 80 million for a new 
Next Generation High Schools program, proposes $2 billion, and 
$4 billion over 3 years, for a new mandatory Computer Science 
for All Initiative, proposes $100 million for a new Computer 
Science for All development grant program, and so forth.
    My point is that the budget is full of new programs. And 
the discussions I used to have with Mr. Miller, when he was 
here, when these new program ideas would come up, I would ask 
him: Why do you want to propose a new program which will be 
chronically underfunded? And I'm sort of asking you the same 
thing.
    Year after year and in this budget, it's new program, new 
program, new program. They are always competing with each other 
for funding, and they are competing with IDEA.
    In countless school visits, roundtable meetings, 
discussions I've had with superintendents, principals, 
teachers, parents, and I ask them, ``What's the most important 
thing that the Federal Government can do to help you?'' the 
answer is always, from every one of them, step up to the 
Federal Government's commitment to fund special ed. We were 
supposed to be providing 40 percent of the new funds that would 
be required under IDEA for the new requirement to take care of 
special needs kids. We've never gotten half that. And this 
budget brings it down from almost half, working down to about 
16 percent.
    Can you please just explain why, why you, why the 
President, why somebody thinks it's more valuable to create 
new, untested programs that are going to be underfunded than it 
is to meet this commitment?
    Mr. King. I appreciate the question, Congressman.
    The budget is really focused on the priorities that I 
described, equity and excellence for all students, investing in 
teaching, and lifting up the teaching profession, and doing 
more to ensure access, affordability, and completion in higher 
education. As we invest in those priorities, we were careful to 
stay within the constraints of the budget caps that were agreed 
to last year and to ensure that this is a budget that actually 
reduces the deficit over the long term.
    And so within those constraints, we tried to prioritize 
those programs that we think would best accelerate our meeting 
those goals. But we are deeply committed to students with 
disabilities and ensuring opportunity for them. Students with 
disabilities would benefit from the programs that are in this 
budget. We maintain the increased investment from the 2016 
budget, and actually increase spending in the Part B and Part C 
IDEA programs.
    Chairman Kline. Well, we're just going to continue to 
disagree here. It seems to me -- continues to seem to me -- 
that we would be a whole lot better to set as our first 
priority meeting the commitment that's been out there for, 
what, now over 40 years, and we can't seem to do it. And school 
after school after school, district after district says that's 
the most important thing. And yet, this budget has created all 
of these new programs, which are, yes, you stay within the 
caps, but that means you're taking money from what could be, 
and I would argue, should be going to special ed.
    Okay, I yield back.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. King, in your written testimony, you talk about 
research and evidence and data. Can you explain how the budget 
develops the appropriate data base and evidence to 
appropriately guide education policy?
    Mr. King. Yes, absolutely. We are deeply committed to the 
principle that we need more evidence-based decision-making in 
education. If you look at education versus other sectors, we 
spend in education something like less than one half of 1 
percent on research and development. In other areas of our 
economy, that number can be as high as 20 percent spent on 
research and development.
    So we need more investment there. This budget prioritizes 
that in a few ways. We propose an increase in funding for IES, 
so that they can engage in important research projects, fund 
important research projects across the country. We call for an 
increase in the education, innovation, and research grant 
programs so that we can fund efforts at the local level and 
State level to develop an evidence base around what works, 
particularly for our highest-needs students. And we propose 
restoring funding for the First in the World grant competition, 
which is focused on building an evidence base around 
initiatives at the higher education level that ensures students 
get to completion. And as a companion to that, we have the HBCU 
Completion Innovation Fund proposal that we think will help 
Historically Black Colleges and Universities build an evidence 
base there around best approaches to ensure that students don't 
only start, but actually finish college.
    Mr. Scott. Thank you.
    And speaking of minority colleges, throughout the South 
there are consent decrees dealing with the effects of 
segregation of schools before the 1960s. Does your budget have 
sufficient funding for you to review those consent decrees to 
see if they are complied with and to address segregation in 
public schools generally?
    Mr. King. Let me first say that HBCUs play a hugely 
important role in American culture. I think it's often 
underappreciated how critical the role of HBCUs is in preparing 
teachers for the country, a diverse teacher workforce, how 
critical the role of HBCUs is in preparing African American 
doctors, African Americans graduating with STEM degrees.
    So we want to make sure that the HBCU sector is a thriving 
one. That's why we invest in the HBCU Innovation Fund. HBCUs, 
as you know, figure prominently in the America's College 
Promise proposal, allowing students to go to HBCUs using 
America's College Promise funds.
    We also ask for an increase in the staff at the Office of 
Civil Rights. And the Office of Civil Rights is currently 
working, as you know, on several issues related to those 
consent decrees and States' allocation of resources to their 
Historically Black Colleges and Universities. But one of our 
very real challenges in the Office of Civil Rights is a huge 
increase in the number of civil rights complaints that we are 
investigating and closing with communities and institutions, 
but we have not had the necessary staff. And so many of those 
complaints take longer to resolve than would be ideal.
    On the broader point of segregation, I would say the budget 
calls for an increase in the magnet schools program, which is 
directed at communities that have either existing court orders 
or agreements around desegregation, but the budget also calls 
for an investment in Stronger Together, which would foster 
locally led, locally defined, voluntary efforts to increase 
socioeconomic integration in schools, because we want our 
schools to be places where students experience the kind of 
diversity that they will experience in the workforce.
    Mr. Scott. Thank you.
    Flint, Michigan has made national news because of the lead 
poisoning in the water. Has your Department developed a plan or 
are you developing a plan to address the educational challenges 
created by this lead exposure?
    Mr. King. We are very engaged in Flint. What's happened 
there, I think, is shameful and tragic. And it's very important 
that all agencies participate in helping the community in Flint 
respond to the situation.
    So we've been in close contact with the school districts 
and the regional providers of educational services in Flint, 
providing technical assistance, helping them identify how they 
can use existing resources to respond to the needs. We've had 
folks on the ground meeting with folks in Flint, visiting with 
parents and educators. We are working with a cross-agency team 
to identify what would be most useful going forward. And we 
certainly will look forward to working with this committee, and 
with your staff in particular, on how we ensure that the 
Federal Government supports the community of Flint.
    Chairman Kline. I thank the gentleman.
    Just to alert all of my colleagues, Dr. King has a hard 
stop at 12:30. We will honor that. So that means I will be 
dropping this gravel pretty quickly if you go over the 5 
minutes.
    Let's see. Dr. Roe, you are recognized.
    Mr. Roe. Thank you, Mr. Chairman.
    Dr. King, good luck on your confirmation. I'm from the 
great State of Tennessee. We do fund our colleges based on 
graduation rates, not on heads and beds. And we also have 
provided free community college and technical college. As you 
know, we've had the greatest gains in K through 12 than any 
State in the Union. People should be looking at that.
    What I want to talk about today with you, and I really want 
to work with the Department on this, and probably you have read 
this, but Dr. Nick Zeppos at Vanderbilt has ``Recalibrating 
Regulations of Colleges and Universities.'' I'm just going to 
go over a few things quickly about the incredible costs that 
are placed on colleges to comply with Federal regulations.
    Basically, regulations that, for instance, in 1997, at 
Stanford University, 7.5 percent of the tuition was to comply 
with Federal regulations. In Vanderbilt University, in 2014, 11 
percent, or $150 million, that's $11,000 per student, just to 
comply with Federal regulations. That's one of the ways we 
could have more money, is to decrease the amount of regulatory 
burden we placed on these colleges and universities. Thirty-
three percent increase in the last 10 years in compliance 
officers in colleges. And this is public data.
    Regulations are overly complex. In at least one case, a 
guidance document meant to clarify uncertainty led to more 
confusion. In 2011, a ``dear colleague'' on Title IX 
responsibilities for sexual harassment contained all these 
complex mandates, and then when they had to explain just that, 
it was a 53-page document that people had to go through.
    The colleges are required to have selective service 
registration. Not that these are not important, but this is 
something a college probably shouldn't be doing. Voter 
registration requirements, peer-to-peer file sharing, foreign 
gift reporting. I mean, on and on, I could go on and on.
    Timely. Let me give you this one. In May of 2013, Yale 
University was ordered to repay financial aid funds based on 
the Department of Education audit undertaken in 1996. The 
University of Colorado received a similar demand based on a 
1997 audit. And even though the universities appealed in a 
timely fashion, it took 17 and 16 years, respectively, for the 
Department to act. That's ridiculous, and it's expensive, 
because they are, again, doing all these things.
    2004, the Department investigated Yale for the Clery Act 
reporting violation, that's sexual harassment on campus, 2001 
and 2002, but the fine wasn't issued until 2013. So I could go 
on and on with that.
    Another thing is a barrier to innovation, these 
requirements are. Vanderbilt gave up its online programming 
because of the extensive requirements in several States. In 
North Carolina, they just threw the hat in. And in California, 
the State of California projected the cost of developing and 
implementing a new data system required to meet regulatory 
requirements at $233 million just for California alone. That 
would have much been better than IDEA or other things that we 
could have spent money on. As we have all said, the resources 
are limited.
    So I want to work with you. This is a great document. Have 
you read this document?
    Mr. King. I've seen it, yes.
    Mr. Roe. It really gives a lot of great ideas. I'm going to 
let you answer.
    Mr. King. So I share your commitment to making sure that 
the resources that are going to the higher education sector are 
going to students. Of course, we want our students to be safe 
and supportive while they are in school and able to go on to 
graduate and prepare for what's next.
    Some of the recommendations in there are things that we are 
working on. As you know, we have a Pell experimental site 
focused on competency-based education where we are working with 
several higher ed institutions to foster innovation. We've got 
an effort with Pell dual enrollments to foster innovation 
around partnerships with high schools. In our higher ed 
institutions, we've made some changes to the financial aid 
process.
    Mr. Roe. I don't mean to interrupt you, but how old are 
your children now?
    Mr. King. Nine and 12.
    Mr. Roe. Okay. Well, I have three that have graduated from 
college. And, sadly, a University of Tennessee grad has got to 
say one got an MBA from Vanderbilt. That's hard for me to 
confess, but I will. But how when you start writing a check to 
a university, how can you, when you write an $11,000 a year per 
student just to comply with Federal regulations that is really 
not much benefit to the student, when you start writing that 
check, it's going to be different. I've written those checks, 
and I want you to think about that. I seriously want to work on 
reducing this regulatory burden. I think it's hugely important.
    Mr. King. Yeah, I share that priority. I'm still paying my 
student loans. I share that priority. And so I think we can 
work together on that. We certainly think in this next year 
there are places where we can make progress on some of the 
items mentioned in that report. I do want you to know we are 
working on some of them already and have implemented some of 
those recommendations.
    Mr. Roe. Thank you. I yield.
    Chairman Kline. The gentleman's time has expired.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Chairman Kline. I have some 
prepared remarks here, and I want to certainly ask the 
questions.
    Dr. King, thank you for coming to speak to our committee, 
and it's a pleasure to hear your education priorities on this 
2017 budget that is certainly going to be discussed the rest of 
this month and maybe longer. But I want to say that in seeing 
the materials that were given to us by staff, I am very 
concerned.
    You made the statement that the HBCUs are a very important 
component of higher education, and I have been one of the 
strongest supporters of HBCUs. In fact, as chairman of the 
Congressional Hispanic Caucus, I met with the Black Caucus and 
the Hispanic Caucus leaders, as well as the Asian Pacific, and 
we came to an agreement that we were going to all work together 
to help all minority-serving institutions.
    But in looking at your proposed budget here, increasing 245 
million for strengthening HBCUs, and seeing the increase in the 
student population of HSIs, the numbers that are enrolling 
since 2010 with the reconciliation of higher education went up 
30 percent, and yet you have nothing in here increasing the 
investment in both the HSIs and the Asia-Pacific colleges and 
universities as we requested of President Obama when we met 
with him at the White House.
    And furthermore, you have to realize that if we don't speak 
up, I don't think that the government and, certainly, the 
Congress is going to increase it, because we had to fight for 
20 years to get the kind of increases we got in 2010.
    Now, HSIs were reduced 2 years ago in their Federal 
investment, and I'm very concerned, and you need to explain to 
me why you left out the other two groups.
    Mr. King. So let me say, first, HSIs, MSIs generally, I 
think, play a critical role in the education system--
    Mr. Hinojosa. I agree with you.
    Mr. King. -- and are often a path to opportunity for first-
generation college students who otherwise might not have access 
to those opportunities.
    In the America's College Promise proposal, MSIs are well 
represented. So if students, hard-working students were to 
pursue degrees at 2-year or 4-year MSIs, they would be eligible 
for the America's College Promise funding.
    The First in the World fund includes a set-aside for MSIs 
and HBCUs at 30 percent, the First in the World fund, that's 
$100 million that's targeted towards completion, efforts to 
improve the evidence base around completion. And then the 
innovation fund, Completion Innovation Fund, is also for MSIs 
and HBCUs.
    So we've reflected MSIs in several places. We were 
constrained in our approach to this budget by--
    Mr. Hinojosa. If I can interrupt you just a minute, because 
the time is running out. In the last 4 years we have shown 
great improvement in graduation rates, in enrollment in higher 
education, and graduation, even, at the colleges. And so we 
need for your Department to not only pay attention to these 
three that I mentioned, but also the tribally controlled 
colleges, because they are certainly not being even considered 
and given the moneys that they need to bring their graduation 
rates up.
    So, again, I look forward to another round of questions, 
but know that we want to work with you and your staff, and that 
I believe that the regulations that were put in to make schools 
accountable is needed, especially Title IX, for women to be 
able to have the moneys so that they can have their sports. We 
put on a big, big fight back in 1998 here in this committee, 
and, finally, we did not allow them to remove Title IX, because 
there were some that were complaining about that regulation.
    And there's other things that are necessary by the Federal 
Government for them to show us, the schools and the colleges, 
the accountability and how they are using that money and if 
it's working.
    Chairman Kline. The gentleman's time has expired.
    Mr. Thompson.
    Mr. Thompson. Thank you, Chairman.
    Dr. King, thank you so much for being here. Good luck, best 
wishes, for your confirmation process with the Senate.
    Mr. King. Thank you.
    Mr. Thompson. Dr. King, in this year's budget request, your 
Department has proposed to level fund the only Federal 
investment in career and technical education, the Carl D. 
Perkins Act State grant program, and instead you propose $75 
million for a new competitive grant program that your 
Department estimates will only benefit 5 to 25 programs 
throughout the country. It speaks to the same question that the 
chairman started out with of, really, making sure that we're 
serious about what we know works, what we have been doing, 
versus creating new programs have so much uncertainty attached 
to them.
    The same week that you made this proposal, your Department 
highlighted the fact that many career and technical education 
programs have waiting lists of students who want to enroll in 
quality CTE programs but cannot because programs simply lack 
the capacity to meet this increasing demand for career and 
technical education.
    Why has the Department of Education continued to propose 
new, untested grant programs that come with tremendous 
certainty -- also, I would argue, you know, favors bigger 
programs that maybe have more capacity for grant writing 
compared to especially those in underserved urban or rural 
areas -- that would only benefit, as the Department's own 
analysis has shown, only a handful of programs, the number 
being 5 to 25 as estimated by the Department of Education, at 
the expense of the Nation's foundational support for CTE via 
the Perkins Act?
    Mr. King. Congressman, I appreciate the question. I am a 
huge supporter of career and technical education. And when I 
was commissioner in New York, one of the things we focused on 
was expanding access to career and technical education, and 
particularly strengthening the partnerships between high 
schools, employers, and also higher education institutions so 
that students were prepared for success when they graduated.
    We see the Next Generation High Schools program in that 
context, a way to cultivate innovation in career and technical 
education. We know that there's a need for more CTE programs 
that are focused on 21st century jobs. There are CTE programs 
around the country that are looking for resources to offer new 
types of programs that respond to new demands in advanced 
manufacturing or in high-tech industries.
    So we see the Next Generation High Schools programs as an 
opportunity to spur that kind of innovation and build an 
evidence base around what works, but believe strongly in the 
Perkins program, hope, actually, that there's an opportunity 
for a discussion on reauthorization of the Perkins CTE Act and 
an opportunity to ensure that we foster innovation, that we 
have the teachers that we need. You know, when I talk to 
superintendents, one of the challenges is finding teachers in 
the CTE fields, particularly high-demand new fields, emerging 
fields like computer science and tech-related fields.
    So CTE would benefit from a variety of the programs that 
are here. We've got a billion-dollar investment in making 
teaching the best job in the world. We think that will help us 
to attract teachers to the CTE fields that are in high demand 
today. So to be clear, this budget invests in CTE because we 
believe strongly in it.
    Mr. Thompson. Well, it invests to the benefit of 5 to 25 
programs across the Nation. So I really don't think it invests 
broadly in the futures of a significant number of kids. I think 
there's a better way to do it.
    I have a question on whether the administration has changed 
its perspective. In April 2012, the administration released a 
blueprint for the reauthorization of the Perkins Act, which I 
agree with you, I think it's incredibly important. I look 
forward as this committee's work goes forward that we get that 
done. But what the administration put forward is viewed by 
many, by stakeholders, as overly prescriptive.
    Has the administration's vision for a Perkins 
reauthorization changed since then? Because if your proposal is 
to level fund it this year, it seems like, perhaps -- well, let 
me just focus on the question being overly prescriptive.
    And, specifically, one key stakeholder group I didn't hear 
you mention was business and industry. I mean, I would 
encourage you to use the same principles that this body, this 
committee did with the Workforce Innovation Opportunity Act, 
with the Every Student Succeeds Act, where we pushed local 
control, local authority, more flexibility by those on the 
ground, decision makers, versus being overly prescriptive from 
Washington.
    Mr. King. Yeah. Eager to work with you on this. I think the 
principles from the blueprint are the principles we think are 
important, investing in innovation, ensuring that we have the 
teacher workforce that we need.
    Close partnerships with employers. One of the projects I 
worked on in New York, I am very proud of, was a partnership in 
IBM launching a school called P-TECH in Brooklyn where students 
graduate with a high school diploma, associate's degree, first 
in line for a job with IBM. We replicate that--
    Chairman Kline. I hate to interrupt, Dr. King, but the 
gentleman's time has expired. We're doing the filibuster-up-to-
10-seconds-left trick, folks. We can't do that. Dr. King has a 
hard stop.
    Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    And thank you for being here, Dr. King. I appreciate it 
very much. And best of luck on your confirmation.
    In this President's budget we once again see an increase in 
the funding for charter schools. And given all the discussion 
that goes back and forth on that concept, whether it's for-
profit or public charters, that we've seen in the past, one of 
the questions that I have, that I think is something that I 
think lags behind in the effort to increase the funding at a 
time when some of the categorical programs are losing funding 
and traditional public schools are losing funding, how will the 
Department ensure that there's some really basic accountability 
to these entities?
    How will these entities communicate to students and parents 
that make the choice to enter a charter school, everything from 
financial disclosure, what is proprietary and not in terms of 
the entities that run these, and regulatory issues, the 
public's right to know, public disclosure, public meetings, so 
that people can attend and know what is outside of a financial 
boardroom but is in a public setting?
    These are questions I think that as we move forward in the 
initiatives of this administration on charter schools that 
lagging behind is the taxpayer accountability as to how this 
money is being used. And what do you propose in that area in 
general?
    And before you answer, let me just indicate to you, Dr. 
King, let me associate myself with Mr. Hinojosa's comments 
relative to minority-serving institutions as a whole.
    Sir?
    Mr. King. Thanks.
    So ultimately charters we see as one path to innovation 
among many. And so this budget invests in magnet schools, 
invests in the Stronger Together socioeconomic-integration 
initiative, invests in the Charter School Program.
    What's most critical is we need that innovation to get 
better outcomes. Despite the progress we've made as a country, 
despite having the highest graduation rate we've ever had, we 
still see significant achievement gaps. And there are places 
where high-performing charters, high-performing magnet schools, 
strong socioeconomic-integration efforts are making a real 
difference for student outcomes, but, of course, that needs to 
come along with the accountability.
    In our Charter School Program, we are focused on helping 
States strengthen their authorizers. The quality of charters in 
a given State is very closely tied to the quality of the 
charter authorizers. Are those authorizers holding the schools, 
the school leaders, accountable to the charter agreement? Are 
they ensuring transparency--
    Mr. Grijalva. Should there, Dr. King, be a basic template, 
though, disclosure, financial, posting of meetings so that 
people can attend, limiting what is proprietary and not in 
terms of financial issues and salary issues that are questions 
people ask, but there's always that wall? Do you think there 
should be a basic template at the very minimum?
    Mr. King. Yeah. There are set of requirements for 
participation in the Federal Charter School Program around 
authorizer practices. Some of the issues that you are raising 
are often dictated by State law. But for our Charter School 
Program, for participation in that grant program, there are a 
set of expectations.
    And, look, we have to acknowledge that there are places 
where authorizers should be doing a much better job. There are 
States where low-performing charters, charters with poor 
financial track records are allowed to continue to operate even 
though they are not living up to their charter, and in those 
places the authorizers should intervene to close those schools.
    Mr. Grijalva. I yield back, Mr. Chair.
    Chairman Kline. I thank the gentleman.
    Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thank you, Secretary, for your willingness to come 
today.
    I want to ask questions about a program that you are now 
responsible for, caring for, and undertaking. It's a program 
that I must admit right from the get-go I don't support. I 
think it is ill-advised. It is top-down management of a set of 
indicators that I don't think we can do effectively from the 
Federal level, and that's the College Scorecard.
    Is the goal of the College Scorecard, in your mind, to 
determine which colleges and universities are legitimate?
    Mr. King. So the goal of the Scorecard is to provide 
information to students, to parents, and to institutions. In 
the work to develop the Scorecard, we did a lot of listening, 
to students, to higher ed institutions, to the civil rights 
communities, to advocacy organizations for students, to 
understand the kinds of information that would better inform 
student--
    Mr. Walberg. Which I think indicates -- and forgive me for 
jumping in, but the chairman has made it very clear we are only 
going to have a set time -- but indicates to me you have a lot 
of parameters to deal with, which makes it very difficult to 
manage that from top down when we have accrediting 
institutions, when we have schools themselves, when we have the 
responsibility of individuals, parents, students, to do the 
research necessary to find which schools work.
    In my district, Hillsdale College, for instance, it's not a 
school that has had a low success rate. According to Kiplinger, 
U.S. News & World Report, Forbes, Princeton Review, it's rated 
as one of the top liberal arts colleges in the world, and yet 
it's not included in the Scorecard, simply because it takes no 
Federal or State moneys, and so it doesn't come into some of 
the plans where you will pick information from. But it also 
comes in some of the rating institutions or recording 
institutions that you do take from, but they are not included.
    I don't think that's accurate, to portray Hillsdale College 
simply because it's not in the Scorecard, it's probably not 
worthy of people going to the school. Do you?
    Mr. King. We're working with the higher education community 
to make sure that schools that weren't included in the first 
round of the Scorecard have the opportunity to be in the 
Scorecard. But it's important to note, the Scorecard is not a 
rating system, in that we don't have rankings of the schools.
    Mr. Walberg. Are they affecting the rating system?
    Mr. King. It's information, it's a transparent system of 
information about the schools.
    Now, people can use that information. And one of the things 
we did, we were careful to do in the development of the 
Scorecard, was make it possible for others to access the data, 
protecting student privacy, being able to assess the data to 
create other tools that might inform students about things like 
how much does the typical student leaving the school have to 
pay in student debt, how much does the typical student leaving 
the school earn. We think those are important things for 
students to be aware of.
    Mr. Walberg. Yeah, but those -- you bring up an important 
point as well. We have another three schools in Michigan here 
that reported either just simply the average annual cost or 
nothing at all, and yet they are included in this point.
    I go to one of my alma maters -- one of my alma maters -- 
storied, historic, world renowned -- and I say this out of 
truth, not just because I graduated from it -- but the Moody 
Bible Institute of Chicago. Over 3,000 students that go there. 
Average annual cost is very low, because every student that 
goes is received on a tuition-paid scholarship. Graduation rate 
significantly high, 75 percent or better.
    But no data available for salary. Why? These are 
missionaries. These are pastors. These are missionary pilots 
that go out. They are not going to make a lot of money. In 
fact, in most cases they have to raise their own. And yet 
that's included in this Scorecard.
    All that to say, I'm not sure this -- though it's rather 
expensive to produce, it puts a lot of information out, and yet 
I think it's misleading as well. And I'm not sure that the 
Federal Government should be involved in putting out something 
that, as you say, is not a rating system, but it becomes a 
rating system. It's impossible not to be a rating system when 
that type of information is included, and it's not incomplete -
- it's not complete. It's incomplete.
    Mr. King. Again, we feel like the transparency for students 
about the information we do have is important and can inform 
decisions.
    I was in a high school a few weeks ago, sitting with 
students who were using a tool called Pell Advocates that 
relies on the information from the Scorecard, and it was a 
high-need-type school in the district, and you could see 
students realizing that schools they thought were out of reach 
for them because their sticker price is so high, realize that, 
no, in fact, they could go to that school because of the 
financial aid that was available. And I saw students literally 
change their mind about what they thought was possible for them 
because of that information. That strikes me as a worthwhile 
effort.
    Mr. Walberg. It would be good to be complete and accurate 
information.
    And I yield back.
    Chairman Kline. The gentleman's time has expired.
    Ms. Fudge.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you, Dr. King, for being here. Certainly, I am 
confident that the Senate will see your stellar qualifications 
and confirm you, so we are just going to claim that.
    I too do want to just agree with my colleague, 
Representative Grijalva, about my concern of accountability for 
charter schools. Obviously, I'm from the State of Ohio, where 
our State purposefully, knowingly, sent misleading information 
to the Federal Government about our charter schools. So I know 
what it's like.
    Dr. King, last year, Congressman Gibson, Senators Portman 
and Warner, and myself introduced the Go to High School, Go to 
College Act, which allows students in dual enrollment in early 
college programs to access Pell Grant dollars while still in 
high school. In October 2015, the Department announced a pilot 
program to allow high school students the opportunity to access 
Federal Pell Grants to take college courses through dual 
enrollment.
    What funding is in the fiscal year 2017 education budget 
for early Pell and dual-enrollment programs, and what is that 
status of the Department's pilot program?
    Mr. King. Thanks for the question. So we think there's 
tremendous opportunity in allowing higher ed institutions to 
innovate around serving high school students. And, you know, 
I've seen many high schools around the country where students 
who may not have thought college was possible for them have 
that experience of taking college classes in high school, and 
it changes their expectations for themselves and their life 
trajectory.
    That's the reason we are committed to the Pell dual-
enrollment experimental site. We are going and make sure that 
we can find that experimental site within existing Pell 
dollars. We put out a request for applications from 
institutions. That closed a couple of weeks ago. We are 
reviewing those applications from institutions, and we expect 
there will be a number around the country that begin this work, 
and we'll build an evidence base around dual enrollment.
    Ms. Fudge. I don't want to cut you off, Dr. King, but the 
time is running. So, indeed, there is no additional funding.
    Mr. King. That's right. We are doing this experimental site 
within existing Pell dollars.
    Ms. Fudge. Okay. Now, the early Pell pilot program appears 
to exclude tuition-free programs. Is that accurate?
    Mr. King. No, it's that we see this is as an investment in 
expansion. And so what we've tried to say is the dollars here 
have to be used to expand access to dual-enrollment programs.
    Ms. Fudge. Okay, Dr. King. The FY 2017 budget request funds 
for the creation of a new American Technical Training Fund, 
which will provide competitive grants to support evidence-based 
tuition-free job training programs in high-demand fields. I am 
certainly one that does not believe in competitively funding 
very many things.
    Could you tell me, even though I know that there is a clear 
need to fund these programs, what plans does the Department 
have to address the issue for the entirety of our Nation's 
workforce, not just those who can write a grant?
    Mr. King. So we think it's important that we build more 
programs that are targeted towards either folks who are low 
income or folks who are unemployed so they can get access to 
jobs training and education.
    Ms. Fudge. Which are the people who generally can't write 
grants very well?
    Mr. King. Well, so these would be the higher ed 
institutions themselves would seek these grants in partnership 
with employer partners and create programs that would serve 
those low-income students, those unemployed students, help them 
get the skills they need to get good jobs.
    Now, this is a competitive grant program, $75 million. But 
then, we also have proposed, in partnership with the Department 
of Labor, a $5 billion investment in programs that would serve 
disconnected youth, programs that would serve folks who are 
unemployed, programs that would provide summer jobs and first 
jobs for high-need students.
    So we see this effort as part of a broader commitment 
across the Federal Government to ensuring that folks who want 
opportunity can get that opportunity.
    Ms. Fudge. But the competitive grants are still the way you 
think it should be done?
    Mr. King. Well, that's what we propose on the discretionary 
side in this specific program, trying to operate within the 
budget caps. But as I said, with the Department of Labor, we 
proposed $5 billion in three different programs that are 
focused on expanding job training and education programs for 
low-income adults and those who are unemployed.
    Ms. Fudge. As my time is running out, the average student 
debt is about $35,000 a person right now. And you don't need to 
answer it at this point, but I would like an answer at some 
point. What funding request are you or have you made to help 
students better manage their loan repayment so they can have a 
quality of life they worked so hard for when they went and got 
a college education? You don't need to answer it, if you would, 
please, respond.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    Ms. Fudge. I yield back, Mr. Chairman.
    Chairman Kline. I thank the gentlelady.
    Mr. Salmon is recognized.
    Mr. Salmon. Thank you.
    Welcome, Dr. King.
    Mr. King. Thank you.
    Mr. Salmon. It's no secret that over the last few years the 
Department's taken several steps to aggressively target 
particular sectors of higher education. One such step was the 
creation of an interagency task force on for-profit 
institutions.
    Proprietary institutions play an extremely important role 
in delivering postsecondary education to nontraditional 
students, and I'm very concerned that the Department is 
unjustly staining the reputation of the entire sector.
    What does the interagency task force on for-profits seek to 
accomplish? How does the Department attempt to justify 
operating the task force without transparency? And how can the 
Department further justify favoring one sector over another?
    Mr. King. So to be clear, our goal in the higher education 
sector generally is to ensure that we protect both the 
interests of students and the interests of taxpayers. We've got 
to make sure that students have access to good information when 
they enroll in a school, they get the support they need to 
graduate, and that taxpayers can be confident that schools are 
using taxpayer dollars to support students.
    The interagency work on that task force is focused on 
ensuring that where there are bad actors -- and there are some 
-- where there are bad actors, there's an intervention to 
change that behavior and to ensure that student interests are 
protected.
    We recently announced the addition of an enforcement unit 
at the Department within our Federal student aid team focused 
on bad actors. It's not specific to one sector. That could be a 
nonprofit, could be a for-profit, could be a public 
institution. But if an institution isn't following the law, 
isn't serving students well, we think it's important for there 
to be an intervention.
    Mr. Salmon. I agree that bad actors should be dealt with 
appropriately, whether they're in the private sector or whether 
they're in the public sector. And I'll just throw a couple 
statistics that come off of the Department's College Scorecard. 
San Antonio College, which is a public university, has a 
graduation rate of 8 percent. The University of Maryland, 
University College, a public university, has a graduation rate 
of 4 percent. The West Coast University, Los Angeles, which is 
a for-profit university, has a graduation rate of 85 percent. 
And the Cambridge Institute of Health and Technology, a for-
profit university, has a graduation rate of 87 percent.
    So there are really good actors and bad actors in both the 
private and the public sector. And I just want to make sure 
that as we go forward, that those students that are 
participating in public universities, that your care and 
concern for them is as great as it is for the students of 
private universities.
    Mr. King. Absolutely. It's a diverse sector, and I think 
part of what those statistics point out is how much work we 
have to do as a country on the issue of completion. And when we 
think about the students who struggle to pay back their debt, 
it's often the students who start but don't finish, and then 
they're trapped in this cycle. They can't get a good job 
because they don't have a degree, but they also can't pay back 
their debt.
    And so many of the proposals in our budget are focused on 
that issue of completion, including in our public institutions. 
The America's College Promise program really requires a set of 
commitments to completion-focused policy changes in States that 
would participate.
    Mr. Salmon. I want to shift to student loans. My son-in-law 
is a dentist now and graduated from Case Western dental school 
in Ohio. His first year he took out a pretty significant 
student loan and then decided, ``nuts to this,'' and he joined 
the Army. They paid for the other 3 years, and he served 3 
years as an Army dentist.
    Now, this year that he took out for a student loan, the 
repayment rate under a government monopoly student loan 
process, the Federal Government basically has a monopoly on all 
student loans now, but the repayment percentage is 9 percent. 
Nine percent. And when he told me he wanted to investigate 
refinancing it, he found out that it was against the law.
    As I started talking to different folks about this, I come 
to find this disparity, that graduate students actually pay a 
higher percentage on their government monopoly student loans 
than undergrad, even though their repayment rates are far 
higher and the risk associated with graduate-level programs is 
far less. In a private sector loan, they would be given a much 
lower rate, but since it's a government monopoly loan, it's 
higher.
    I come to find out that the reason that they pay those 
exorbitant rates and they can't refinance is that that's 
actually revenue to the State. It's a hidden tax. And I would 
just encourage all of my colleagues to really take a second 
look at this. These monopoly loans from the government aren't 
all they're cracked up to be and they're really penalizing a 
lot of families.
    Chairman Kline. The gentleman's time has expired.
    Ms. Wilson.
    Ms. Wilson of Florida. I'm happy to welcome you here today, 
Dr. King. It was my pleasure to host you this past Friday for 
Miami-Dade County's My Brother's Keeper Action Summit. It was 
an honor to show you how our community leaders, elected 
officials, and education community have committed themselves to 
uplifting our young people.
    I find myself very moved by your personal story. It is 
truly a testament to the power of education. And I look forward 
to working with you in the future to ensure we promote and 
protect educational opportunities for our youth. I know you are 
exceptionally qualified to be the Secretary of Education 
because you were a principal.
    I commend the President for submitting a budget that seeks 
to expand access to a quality education and ensure our children 
are college and career ready.
    I have a couple of questions for you, and thank you. During 
the ESSA conference committee, I was able to push through an 
amendment that created an additional use of new Student Support 
and Academic Enrichment Fund so schools can establish and 
improve the dropout and reentry programs that give potential 
dropouts the support they need.
    The President's budget does not fully fund this new block 
grant at the fully authorized levels. Has the Department 
proposed flexibility to ensure LEAs can fund varied strategies 
to support learning, including dropout prevention and reentry?
    Mr. King. So first, Congresswoman, thank you for the 
opportunity to join you in Miami for the My Brother's Keeper 
event. Thank you for your leadership in the community around 
ensuring that our young people are safe and have educational 
opportunities.
    We think there's tremendous opportunity as States and 
districts move forward with implementation of the Every Student 
Succeeds Act for districts to invest in smart strategies aimed 
at reducing dropout rates, ensuring safe and supportive 
environments for students, ensuring that students have access 
to a well-rounded education.
    In Title IV, we increase the funding. The programs that 
were covered by Title IV in the `16 budget were at about $278 
million. We increase that to $500 million in our budget. But we 
were, again, operating within the constraints of the budget 
caps and trying to make sure that we addressed the President's 
priorities within those budget caps. But we do think those are 
hugely important programs and think there's great opportunity 
for LEAs to address student needs.
    Ms. Wilson. Thank you.
    I also want to know if you can speak to how the President's 
budget takes steps towards training and attracting more diverse 
school leaders.
    Mr. King. Hugely important issue. You know, if you look at 
our public schools today, the majority of the students in the 
Nation's public schools today are students of color. And yet 
only about 18 percent of our teachers are teachers of color. 
Only 2 percent of our teachers are African American men. And so 
we have work to do as a country to ensure a diverse teacher 
workforce.
    The President's budget includes a proposal around a Teacher 
and Principal Pathways innovation grant program that would be a 
grant that teacher preparation and school leader preparation 
programs could leverage to make efforts to improve diversity.
    We know, for example, in some communities paraprofessionals 
are a place where there's much more diversity than among the 
teaching staff. And if there was an opportunity to provide 
coursework and training and to see those paraprofessionals as 
future full-time teachers, you could add to your staff 
diversity.
    There are other places around the country where we see 
districts struggling with recruiting bilingual teachers to meet 
students' needs. And so this Pathways initiative would be 
another opportunity.
    There's also room, we think, for States and districts to 
use Title II dollars for programs that would support the 
effective diverse teacher workforce that we need.
    Ms. Wilson. Okay. Can you speak more about proposals to 
support strong early education programs, including 
kindergarten?
    Mr. King. Yeah. Early education is a top priority for the 
administration. As you know, the President believes deeply that 
early education can be the key to getting students off on the 
right track as they start their education. The budget includes 
Preschool for All with the goal that all students would have 
access to high-quality preschool programs, particularly those 
students who are most at risk.
    The budget also includes an increase for the Preschool 
Development Grant program that now will be managed in 
partnership with Health and Human Services. That program is 
already increasing the number of high-quality early learning 
slots.
    And one of the signature elements of our Preschool 
Development Grants program and our Race to the Top -- Early 
Learning Challenge program, for both of those initiatives, has 
been the requirement for good collaboration around transitions 
to kindergarten. We really see preschool not as separate from 
the K-12 system, but as a part of the K-12 system. It's really 
about building a quality P-12 pipeline.
    Chairman Kline. The gentlelady's time has expired.
    Dr. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary for being here. I have several 
questions for you. I'd be happy for you to answer with any time 
that's remaining, but will ask for a written response for 
questions you're not able to answer here today.
    I'm very concerned about what's happening within your 
Department's Office for Civil Rights and its impact on college 
campuses across the country. For too long the OCR has gone 
around Congress by legislating a new mission, and I'm deeply 
concerned about the office's legitimacy and effectiveness on 
these issues and the potential negative impact on students and 
institutions. The office has used the Dear Colleague letter 
process, an implied threat of investigation that would result 
in the loss of Federal funds as a way to require action by 
institutions.
    Anything that can result in an expensive and protracted 
investigation should be established by Congress through law. 
And I'm very concerned that a number of the office's actions 
encroach on our constitutional authority to make laws. The 
office should follow the regulatory process that provides ample 
time for notice and comment. There are significant issues that 
should be addressed by stakeholders before the Department makes 
a unilateral decision on how to address certain issues. And, 
again, individual circumstances matter greatly.
    To that end, these are questions. How many of the Dear 
Colleague letters that have been issued over the past 6 years 
were reviewed to determine they should have been submitted for 
notice and comment? How many of those letters have had notice 
and comment period prior to issuance? Who makes that 
determination? Who's consulted about these significant changes 
prior to the letters being written?
    I'd also like to know what you plan to do to ensure this 
process is reformed to give all relevant stakeholders time to 
weigh in to ensure any new rules are the best way to prevent 
discrimination in our schools and on campus.
    Further, the Office of Civil Rights is busy touting how 
many sexual assault cases it has opened, but the number of 
cases isn't as important as providing justice in each 
individual case. Many are concerned that the office's current 
approach is counterproductive to reaching a just resolution, as 
well as being costly and efficient.
    How were these cases brought to the Department? How many of 
the cases before the office have been closed? How long does it 
take to close these cases? And are you publishing that 
information along with the findings in each case while ensuring 
that you're protecting student privacy?
    And last, the President's budget includes a sizeable 
increase in funding for student aid administration. However, at 
a November hearing we heard testimony that FSA is not meeting 
its statutory obligations to be accountable for its operations 
or meet its mandated planning and reporting requirements. How 
do you plan to ensure FSA is acting as an effective partner 
with institutions as its PBO status requires?
    So I welcome you to answer these. But I also would like a 
written response to any you're not able to answer, by March 1. 
Thank you very much.
    Mr. King. Thank you, Congresswoman. Certainly our staff can 
follow up with yours on some of the details here.
    Just broadly on the first point, on the Office of Civil 
Rights. Our goal in the Office of Civil Rights is to ensure 
that the rights of students are protected and that our 
campuses, whether it's our K-12 schools or our higher education 
campuses, are safe and supportive environments for all 
students. We think protecting students, both female and male 
students, against sexual assault has to be a part of how we 
ensure that our campuses are safe and supportive environments.
    The Dear Colleague letters that we issue do not have force 
of law. They are not, from our perspective, the same, clearly, 
as a statute or a regulation. But they are an attempt to 
provide clarity for the field and to answer questions that we 
get.
    Ms. Foxx. Is it not true, though, that the campuses feel 
they have the force of law and that there is a strong 
intimidation tone to those letters that you're issuing?
    Mr. King. The letters generally try to do two things. One 
is to clarify how the Department interprets existing law and 
regulation to provide clarity. And also to provide models of 
best practice, examples of best practice. And so that's the 
goal with which we approach Dear Colleague letters.
    When we do regulations, we follow the public comment 
process or the negotiated rulemaking process and gather public 
comment. Often the Dear Colleague letters are referencing 
existing statutes or regulations that went through the comment 
process.
    Ms. Foxx. Well, I look forward to getting the detailed 
responses to the questions that I've asked. Thank you very 
much.
    Mr. King. Thank you.
    Chairman Kline. The gentlelady yields back.
    Ms. Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Congratulations, Dr. King, on your nomination. I wish you 
an expeditious path through that process.
    I know today is budget and tomorrow is Every Student 
Succeeds Act. But I want to for a moment follow up on Ms. 
Wilson's comments about the Student Support and Academic 
Enrichment Grant program. You know, we authorized $1.65 billion 
for these formula block grants, but the Department budget 
requests only about a third of that amount and also proposes 
making the grants competitive. The distribution formula was 
designed to protect against some of the concerns of 
consolidating programs. So I'm concerned about that.
    So I have a two-part question. First, can you talk about 
the disruption that could be caused by making these grants 
competitive? There's a lot of potential from these formula 
grants to sustain meaningful changes.
    And second, I appreciate the challenges of designing a 
budget that adequately funds programs. But I must tell you, I'm 
currently circulating a letter to my colleagues urging their 
support in an attempt to fully fund this program at its 
authorized level. So are you confident that these additional 
dollars, if we are successful in that request, will be put to 
good use in our local school districts?
    So the concern about the disruption and will these dollars 
be put to good use. And I do want to save time for a higher ed 
question quickly.
    Mr. King. Thanks for the question. You know, I believe very 
strongly in the programs that Title IV is intended to support, 
whether it's school counseling or the work to ensure that 
school environments are safe and supportive or the work to 
ensure that students have access to a well-rounded education 
that includes the arts and physical education or access to 
advanced coursework, like AP classes.
    So that's hugely important, and we think States and 
districts have the opportunity to make good use of those Title 
IV dollars. As I mentioned earlier, our proposal is an increase 
over the funding that was in the four prior grant programs in 
`16. And so it is a significant increase. We think $500 million 
is a good start. Again, we were working, as you reference, 
within the budget agreement caps.
    Certainly look forward to working with you on this question 
and with this committee as the budget process moves forward. 
The priorities behind Title IV are ones that we share. I think 
one of the challenges in administration will be ensuring that 
the grants are of sufficient size that districts can make good 
use of them to support exactly the intended programs.
    Ms. Bonamici. I appreciate that. We've seen -- I've seen 
over my years, though, that the competitive grant process 
oftentimes puts smaller rural districts and underfunded 
districts at a disadvantage.
    Moving on to higher education, first in response to Mr. 
Salmon's comments on student loans, I want to remind him that 
Congress, we, set the interest rate. So I know my side of 
aisle's certainly willing to work with him and all of you on 
that side of the aisle to lower those rates so that the Federal 
Government isn't profiting off of repayment.
    So I also, like you, had student loans. I worked my way 
through college. And last Congress I introduced the 
Opportunities for Success Act, I'll be reintroducing, to 
provide resources for low-income college students to 
participate in meaningful internships. So I'm really interested 
in the President's budget proposal for directing workstudy aid 
to students most in need. So if you could address that.
    And also I wanted to mention a bipartisan effort I'm 
leading to give student loan borrowers the option to have their 
income information automatically certified for income-based 
repayment plans. And my hope is that the Department will work 
with my office and the IRS to make it easier for borrowers to 
choose to have their loan payments automatically based on their 
income.
    So can you talk about your commitment to this effort, 
please, as well as that workstudy aid issue?
    Mr. King. Sure. So let me say the challenge that we have as 
a country is for sure helping -- one of the major challenges we 
have is helping students think through how to manage their 
student debt. It's one of the reasons we have been focused on 
the income-based repayment plans for direct loans so that we 
can cap the amount of money that students need to pay at 10 
percent of their discretionary income so that students can 
manage their debt. It's one of the reasons we think it's so 
important to have good information for students at the outset 
about their options, about the cost of their degree, about 
their likely income when they leave a particular program.
    We are very interested in working with you on issues around 
workstudy. Workstudy can be transformative for students, both 
in terms of the ways that it helps them to make their way 
through college, but also workstudy is supporting students 
doing very important public service activities on many 
campuses, allowing students to really engage with the community 
outside of their university. Many students can trace why they 
became a teacher or why they went into public service to 
experiences they had through workstudy.
    So hugely important program. Eager to work with you on 
that. And certainly eager to work with you on how we make the 
income-base repayment program as efficient as possible and 
increase participation in that program as much as possible.
    Ms. Bonamici. Okay. I look forward to working with you. 
Thank you.
    Yield back. Thank you, Mr. Chairman.
    Chairman Kline. Gentlelady yields back.
    Mr. Rokita.
    Mr. Rokita. Thank the chairman.
    Acting Secretary King, thanks for being here today. I'm 
currently chairing the kindergarten to 12th grade subcommittee, 
and look forward to working with you. Just so know, my office 
is always open, the phone's always available for you. That's 
the relationship I had with your predecessor, and I offer it to 
you here publicly.
    Mr. King. Absolutely.
    Mr. Rokita. A little bit of housekeeping to start off. I 
was intrigued by Mrs. Foxx's line of questioning and 
appreciated the March 1 deadline that she offered to get 
written answers to her questions. I want to be clear for the 
record that you agree that that's a reasonable deadline to get 
written answers back.
    Mr. King. I think so. I mean, I think our staff should 
consult with hers on some of the--
    Mr. Rokita. Could you take 5 seconds right now and ask your 
staff if any questions she asked were unclear to them, because 
I know they're going to help writing the response, and relay 
those concerns to the microphone now?
    Mr. King. No, it's just that we don't have our OCR team 
here, and I want to make sure that we -- the OCR team keeps 
very careful documentation of their cases. I just want to make 
sure that we have adequate time to respond fully.
    Mr. Rokita. So do you doubt you can make the March 1 
deadline?
    Mr. King. We will endeavor to meet the March 1 deadline. 
But again, I want to make sure that our team consults on the 
specifics of the questions.
    Mr. Rokita. Do you feel any of Mrs. Foxx's questions were 
unclear?
    Mr. King. It's a question of whether we can gather all of 
the specific material that she's interested in by March 1.
    Mr. Rokita. Okay. But the questions were straightforward 
and reasonable?
    Mr. King. The questions were reasonable.
    Mr. Rokita. Okay. Thank you, Doctor.
    I also wear the hat -- or the curse -- of being vice 
chairman of the Budget Committee, and so I'm very interested in 
today's hearing from a couple of those perspectives. I see that 
your administration has been proclaiming that the budget 
adheres to the budget agreement reached by the previous Speaker 
last fall, I believe in October. Yet it includes over $6 
billion for new mandatory spending programs in 2017 alone.
    Now, just two of those programs that we touched on a little 
bit so far, Preschool for All and the College Promise programs, 
are estimated to increase the deficit by $127 billion over 10 
years -- $127 billion over 10 years alone. So I find it hard to 
understand how that adheres to any kind of budget agreement. 
This was my initial reaction: How does that adhere to any 
budget agreement when we blow up the numbers that way?
    So then you dig a little deeper, and I realized how you did 
it. These programs, you moved them into mandatory spending 
versus discretionary spending. And of course the heart of the 
agreement was on the discretionary side. And for those watching 
at home or wherever you may be tuning in, it's sort of a 
confusing concept, not to us, but to others, mandatory versus 
discretionary. Of course the appropriations process is all 
discretionary spending. The budget is discretionary spending. 
Congressman Rokita and the rest of us here, we all vote on 
whether to dial up those numbers or dial down those numbers.
    But what doesn't get touched and what is the majority of 
our Federal spend every year and what is a majority of our $19 
trillion in debt is the mandatory side. So as I read your 
budget request, you're simply -- you're taking $127 billion in 
terms of new spending, put it into mandatory programs, so we 
can't touch it unless we reform that underlying program, which 
we did in the Every Student Succeeds Act, and we'll probably 
talk more about that tomorrow.
    But you see the switch that I'm talking about here. People 
would call it a gimmick. And this is your first time here in 
this capacity on the Hill. You don't want to start off that 
way. Did you have a hand in writing this budget?
    Mr. King. The President's budget overall not only stays 
within the caps agreed to on discretionary spending, but the 
budget overall reduces--
    Mr. Rokita. Yeah, I just said that. Sir, no, I'm sorry, let 
me interrupt you. I just said that. Yes. It agrees to the 
discretionary side of things by blowing up the mandatory side, 
including a $127 billion increase in spending over 2 years on 
your two programs, Preschool for All and College Promise.
    So my question was, did you write this budget?
    Mr. King. Again, the President proposes for the budget 
overall tradeoffs that ensure that the budget overall, 
including mandatory spending--
    Mr. Rokita. Let's not start off like this. I know you're 
new. You can easily say that Arne Dunkin wrote -- helped the 
President write this. Did you have a hand--
    Mr. King. I was actively involved in the conversations, as 
was the entire team at the Department, working closely with OMB 
to ensure--
    Mr. Rokita. Do you think that's a responsible way to 
budget, to move stuff from the discretionary side into the 
mandatory side and then proclaim that you're adhering to an 
agreement?
    Mr. King. Again, the budget as a whole actually would 
reduce the deficit. Each program that is proposed on the 
mandatory side also has a pay-for--
    Mr. Rokita. You're about ready, you've been nominated, to 
hold the reins of an agency that spends billions of dollars, 
and there's a tremendous amount of responsibility that goes 
with that, as you know. Did you agree to move $127 billion of 
new spending from the discretionary side out of the 
appropriators' hands and out of the budget's hands to a 
mandatory side of spending?
    Mr. King. This budget commits to programs that we think are 
hugely important for the country. Preschool for All, as you 
know--
    Mr. Rokita. Thank you.
    Thank you, Chairman. I yield back.
    Chairman Kline. The gentleman yields back.
    Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today.
    I want to turn towards the preschoolers and early 
education, and specifically parts B and C of the IDEA Act. As 
you know, they are absolutely critical to addressing the needs 
of our young children from birth through age 5 who experience 
learning challenges, including, you know, they provide support 
for preschools as well as State infrastructure for early 
screening, referral, and intervention. I was delighted to see a 
modest increase. You know these programs could use even more, 
but we are grateful for the Department in doing that.
    Can you address the priorities in the area of early 
education, but specifically for young children with 
disabilities?
    Mr. King. Yeah. So hugely important role for preschool and 
students' long-term success. And we think that's hugely 
important for students with disabilities and for all students.
    We do propose an increase in part B and C, and that is a 
place where we tried to increase IDEA funding. But I would say 
the Preschool for All proposal, which would move us towards 
universal access, particularly for our highest need students, 
to quality public preschool, would serve students with 
disabilities quite well. And we think it's important that where 
possible we have inclusive preschool environments. And ensuring 
that access to preschool is available would allow more 
communities to create inclusive preschool environments where 
preschool students with disabilities are in the classroom with 
general education preschool students.
    Over the long term, I think there's more that we can do as 
a country to support early identification. The earlier we 
intervene with students, the better off we'll be. I know there 
are proposals on the Health and Human Services side around Head 
Start and so forth.
    But in terms of the education budget, I think the 
combination of Preschool for All, the increase for Preschool 
Development Grants, which are jointly administered with HHS, 
and the part B and C increases all reflect our deep commitment 
to preschool.
    Ms. Clark. Wonderful. Thank you.
    I also wanted to ask you and follow up on some of my 
colleagues' questions around year-round Pell grants, which I am 
certainly hearing from my community colleges in Massachusetts 
are critical.
    And as we are looking at curriculum for community colleges 
really with an emphasis on stackable certificates, so that our 
students can get to that first job, I wonder how you see sort 
of -- do you see any tension with your On-Track Pell Bonus 
potentially between encouraging students to take a certain 
number of credit hours versus getting that initial certificate 
that may allow them to start on a career path quickly?
    And some of the issues that I've heard coming up are really 
the need for flexible ways that students can sign up for class 
time, whether that be a longer class that doesn't meet as 
frequently or a Saturday class, so that they can provide for 
their families while furthering their education. I just wonder 
if you could address that.
    Mr. King. Yeah. So, you know, college completion is hugely 
important to how we ensure America's long-term economic 
competitiveness, and it is critical to solving some of our 
challenges around student debt. And what we know from evidence 
around the country is that programs that help students get to 
completion can have a significant impact on graduation rates.
    We know that there are programs -- for example, when I was 
in New York, at City University of New York, a support program 
that they have called ASAP for students who are in community 
college literally doubled the completion rate. A small number 
of supports for students doubled the completion rate from about 
20 percent to 40 percent for Pell-eligible students, ensuring 
that they would get to a degree.
    So these proposals build on an evidence base. We know that 
if students have an incentive to take more credits, increases 
the likelihood that they'll complete. It's a small incentive 
that we're proposing, $150 a semester, to encourage students to 
take 15 credits. We know that campuses around the country, 
University of Hawaii is an example of this, that have committed 
to these 15-credit initiatives have then had to examine exactly 
the issues you're describing. Do students have access to the 
courses that they need each semester? Are there creative ways 
to schedule those courses?
    That's why we also propose an institutional bonus for 
campuses that do a good job improving their completion rates 
for Pell students, because often institutions can structure 
their program design, the counseling they provide to students 
to increase completion rates.
    And then summer Pell builds on that as well. We know that 
if students can stay on track and take those extra summer 
courses, they are much more likely to graduate.
    But you're right. We've got to do this all with attention 
to making sure that we maintain space for innovative program 
design on the part of institutions--
    Chairman Kline. The gentlelady's time has expired.
    I want to advise all my colleagues that I'm going to limit 
time to 4 minutes so that everybody has a chance to engage in 
the discussion and we can still meet the commitment to Dr. King 
to get him out of here by his hard time.
    And, Dr. Heck, we're going to start with limiting you. 
You're recognized.
    Mr. Heck. Thank you, Mr. Chair.
    And thank you, Secretary, for being here.
    I represent the Clark County School District in southern 
Nevada, which is the fifth-largest school district in the 
country, which presents its own unique challenges. But one of 
the bright spots that we have is our career and technical 
education programs, which provide for very engaged students, 
passionate teachers, and much higher graduation rates than the 
general population.
    CTE has that ``hold harmless'' provision in it that was 
based on 1998 funding levels, which disproportionately impact 
States that experienced rapid growth, like Nevada, in the 
ensuing 18 years. A prior budget proposal would have shifted 
money from CTE to another program, which would have then 
invoked the ``hold harmless'' provision. I was glad that 
proposal was not followed and has not reappeared. But I remain 
concerned about that provision.
    Can you tell me what ideas you have to ensure adequate and 
equitable distribution of CTE funding to all States based on 
current populations and need?
    Mr. King. I'm certainly open to working with you on that. 
As I had indicated earlier, we're hopeful that there will be a 
reauthorization of the Perkins CTE Act, and I think that would 
create an opportunity for discussions about allocation of 
resources.
    And also ways that we spur innovation. You know, in New 
York, one of the ways that we were able to stretch the CTE 
dollars was working through regional providers that were 
serving multiple districts. And that allowed us to pool 
students, pool resources, and create CTE programs that were 
more cost effective.
    So I think there's an opportunity in that reauthorization 
discussion to get at exactly this issue.
    Mr. Heck. I appreciate your willingness to work with me on 
that.
    Also, last year I introduced a bipartisan Simplifying the 
Application for Student Aid Act with Reps. Roe, Polis, and 
Pocan. The important legislation would require the Secretary of 
Education to allow students to use their tax information from 2 
years prior to fill out their FAFSA earlier. That would provide 
a quicker response to students and therefore give them more 
time to make important decisions about their college education.
    Last year, the Department announced that it would use its 
current authority to allow students to use that older data. 
While, obviously, I agree with the concept and will continue 
advocating for it, I'm concerned that the transition year, 
where the same income year will determine two award years, will 
cause confusion for students and burden for institutions.
    Can you clarify for me how you will treat conflicting 
information during the transition and explain when you will 
provide schools with the detailed instructions for how to do so 
given the October 1 implementation date?
    Mr. King. And we're working to provide additional guidance 
to schools. As you say, the prior-prior approach would apply 
beginning next October, apply to all students. But there is 
flexibility built into our student aid system for students aid 
administrators at campuses to look at if there have been 
changes in a student's circumstances. Because of course, even 
as we move towards the prior-prior year tax return driving the 
aid calculation, if a student's parent has lost a job or a 
parent has passed away, we want there to be flexibility, and 
student aid administrators would maintain that flexibility to 
adjust awards based on that additional information.
    Mr. Heck. Thank you very much.
    Mr. Chair, I'll yield back the balance of my time, pointing 
out that I was able to get two questions in.
    Chairman Kline. You are my hero, sir. The gentleman yields 
back.
    Mr. Polis.
    Mr. Polis. Thank you, Mr. Chairman. Well, I have three 
questions for the Secretary.
    And I'll give them all to you, and then hopefully you'll 
have time to respond.
    First of all, thank you so much for coming before us and 
thank the Obama administration for putting forward a great 
budget in this area. I especially want to thank you for the 
administration's proposed funding increase for the Charter 
School Program requested at $350 million. As you know, the 
administration also supported the recent omnibus bill that had 
an increase of $80 million of plus-up for fiscal year 2016 
funding for charter schools, and I'm pleased to see the support 
will continue under your leadership.
    My three questions are, first, open education. Last year, 
the Department indicated that access to open education 
resources would be a priority for the Department's Office of 
Education Technology. We see great opportunities to save 
students money on textbooks, particularly at the higher ed 
level, and I'd like you to address how the President's budget 
request continues the Office of Ed Tech's commitment to 
increasing access to open resources and ensuring materials 
created with grants from the Department are available to the 
public under an open license. That's the first one.
    Second question, a few people have addressed, have brought 
up the importance of summer Pell. I want to lend my voice to 
that. I spoke with students in Boulder and Fort Collins at CSU 
and CU about access to Pell Grants in the summer. I was hoping 
you could briefly address how the administration's request for 
funding summer Pell is important for students and your plans in 
that area.
    And then finally, dual enrollment. We're very excited in 
Colorado, we found that a student is 23 percent more likely to 
attend college if they took dual-enrollment classes in high 
school. That is a class that is offered usually through a 
community college for college credit. It's a great way to get 
low-income kids or first-generation college-goers to access 
college, sometimes even earn an associate's degree concurrent 
with their high school degree.
    What is the Department doing and what can the Department do 
to support the growth of these programs, and what can Congress 
do to ensure that more students have access to dual-enrollment 
programs and access to low-cost or no-cost for-credit college 
courses while they're in high school?
    Mr. King. Great. Thank you, Congressman.
    So on the issue of open educational resources, we think 
there's a huge opportunity for savings and sharing -- sharing 
of best practice, savings to schools and to students. And 
that's true of K-12 and higher ed. There are some very 
interesting efforts around the country around open educational 
resources to lower the costs of textbooks for students at the 
higher ed level. Certainly at the K-12 level, lots of 
opportunities for sharing between educators across the country.
    We have a regulation out that we just closed public comment 
on that would require grantees, Federal grantees, to make their 
resources available in an open way. We're reviewing that 
comment now and are excited about that effort.
    Summer Pell, I think, can be transformative for students. 
Great examples around the country of the ways in which helping 
students get to completion faster, manage their time better as 
they work towards completion can improve outcomes. We think 
Summer Pell will help with that. We've built that into our 
budget proposal and see it in conjunction with the 
institutional bonus for schools that improve completion rates 
for Pell students as part of a multiprong strategy to improve 
completion rates.
    And then on the issue of dual enrollment, we've got a Pell 
experimental site on dual enrollment. We've just received 
applications from institutions around the country, higher ed 
institutions, to use Pell for high school students to pursue 
dual-enrollment classes. We're excited about that effort. The 
research base on dual enrollment is very strong already, and we 
will build that evidence base with this experimental site. But 
there's also an opportunity in our proposed Next Generation 
High School initiative for schools to use a dual-enrollment 
approach.
    Mr. Polis. And we're in my last 10 seconds, and I'd 
appreciate a future follow-up. I just want to encourage you to 
consider that a realistic way to deliver on the President's 
commitment to make community college free is through our K-12 
system and through concurrent enrollment. And I hope that you 
can see that as, you know, one of our most realistic ways to 
actually make that happen.
    Chairman Kline. The gentleman's time has expired.
    Mr. Polis. Thank the gentleman. I look forward to your 
responses.
    And I yield back.
    Chairman Kline. Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary for being here. Appreciate you 
being here today.
    We've received some reports that the Federal Student Aid, 
FSA, and the Office of Postsecondary Education, OPE, do not 
always communicate effectively, and, in general, most offices 
within the Department are siloed from each other, which harms 
coordination and efficiency. This came to a head in November 
when former Secretary Duncan sent a memo to FSA and to OPE 
instructing them to find a better process for communicating 
effectively in regards to accreditation issues.
    How did this communication become so ineffective it 
required a memo from the head of the agency? And then what are 
you doing within the Department to make the communication 
practices effective overall, better overall?
    Mr. King. Two important parodies for me in this year are 
continuing to strengthen the efficiency of management of the 
Department and improving our efforts to ensure that the higher 
ed sector delivers access, affordability, and completion. The 
accreditation work is in that context, where we want to make 
sure that we are transparent about the information on the 
process that accreditors follow, we want to make sure that 
accreditors are doing a good job fulfilling their 
responsibility as part of the accountability for higher ed 
institutions.
    We worry that institutions like Corinthian which, you know, 
failed -- Corinthian was accredited all the way through its 
failure as an institution. And so we've got to make sure that 
accreditors are paying close attention to institutional 
performance.
    That memo was issued in that spirit, to try to ensure that 
we work together across the agency to strengthen the process 
for monitoring and supporting accreditors, and we're going to 
continue that work. We've also got legislative proposals, happy 
to share those with you, on how we might improve the process 
for accreditors.
    Mr. Guthrie. Thank you. And I believe Dr. Foxx had asked a 
question at the end of her time and didn't have time for a 
response. And just to remind you, because I know you've had a 
lot of questions since then, she asked: How do you plan to 
ensure FSA is acting as an effective partner with institutions 
as its PBO status requires?
    Mr. King. One of the proposals in the President's budget is 
for an increase in staffing at Federal Student Aid. We see that 
the loan portfolio is growing. So we've got to make sure that 
we have the staff that we need to support that portfolio. We 
are working with a variety of contractors, including servicers, 
to try to improve the student borrower experience. We will soon 
recompete the servicer contract, which will be an opportunity 
to strengthen how servicers work with borrowers. I mentioned 
earlier, we launched a new enforcement unit focused on ensuring 
that where there are bad actors, whether it's in the for-
profit, non-profit, or public sector, that we have a strategy 
to investigate and intervene.
    So we have a number of initiatives underway to strengthen 
the experience of students and institutions working with the 
Federal Student Aid system.
    Mr. Guthrie. Thank you for your answers, and 
congratulations on your selection. We look forward to working 
with you over the next year.
    And I yield back 40 seconds.
    Chairman Kline. You also are my hero. Gentleman yields 
back.
    Ms. Adams.
    Ms. Adams. Thank you, Mr. Chair.
    And, Dr. King, thank you for testifying today and for 
speaking with the Bipartisan HBCU Caucus a few weeks ago. It 
was a pleasure to have you there and to know that we have a 
bipartisan group of members on both sides of the aisle who are 
very interested in this issue. I'm encouraged as well that you 
will do well with your confirmation, and congratulations.
    As you know, and many of my colleagues know, HBCUs have 
been a priority of mine for a while. So I was pleased to see 
the new HBCU/MSI Innovation for Completion Fund, and within it 
the First in the World Program and the support for HBCUs. So 
could you talk a little bit more about the decision to create 
the program and support for HBCUs and ways that the Department 
can work to address the funding discrepancies that have 
historically existed for these schools?
    Mr. King. Yeah. Thank you for your question. And thank you 
for the opportunity to meet with the Bipartisan HBCU Caucus.
    We think one of the critical issues that we need to work on 
as a country is completion, ensuring that students who start 
are able to finish school. We know there are examples around 
the country, including HBCUs and MSIs, of smart initiatives to 
provide counseling to students, to help students figure out the 
right course selection, to help students think about internship 
opportunities that will expose them to possible career choices 
that might shape their course selection, just-in-time small 
grants to help students manage some of the financial challenges 
that come up in the day-to-day of their lives, student support 
services where students may be struggling with challenging life 
issues, whether that's domestic violence in a relationship or 
issues of food insecurity.
    So we know that those programs can help improve completion, 
and when students get their degree, they are in a much better 
position to be successful in the economy and to pay back any 
debt that they may have.
    First in the World was funded for 2 years, and there are a 
number of grants, including to HBCUs and MSIs around the 
country, that are showing early signs of promise around 
improving completion through support services for students. We 
think that's an important program to continue and needs to have 
a set-aside for HBCUs and MSIs because of their critical role 
in the economy and our culture.
    Similarly, the HBCU/MSI Innovation Completion Fund is 
designed to be targeted to HBCUs and MSIs that want to help 
build an evidence base around what works to help students get 
to completion.
    Ms. Adams. Okay. Let me ask you another question which has 
to do with the decision the administration made 5 years ago to 
cut $10 million from the Ronald E. McNair Postbaccalaureate 
Achievement TRIO program, which prepares low-income first-
generation minority students for graduate studies. And so I 
understand that at that time the administration made the 
decision to support efforts to improve STEM-based programs and 
to help the Nation address the decline in our country's STEM-
trained graduates by focusing on students earlier in the 
pipeline. So the direct result was the loss of the opportunity 
for future scholars to pursue a graduate degree, which included 
the program at Dr. McNair's and my alma mater, North Carolina 
A&T, which sits in my district.
    Given that Congress afforded a $60 million funding increase 
to TRIO last year, will you consider restoring this program?
    Mr. King. Yeah. We look forward to working with you on 
this. We are pleased that there's funding there to continue the 
McNair program at the prior level.
    I would say that the TRIO programs have a hugely important 
role on our campuses. TRIO programs are a key part of the 
supports for first-generation college students. We have a 
number of staff members and leaders at the Department who were 
themselves beneficiaries of TRIO programs. And so we think 
that's hugely important and look forward to working with you on 
implementation.
    Chairman Kline. The gentlelady's time has expired.
    Mr. Messer.
    Mr. Messer. Thank you, Chairman.
    Congratulations, Dr. King. It's great to have you here.
    I want to start with a thank you and then a request for 
help. The thank you comes with your predecessor and your team 
back in September, the Federal Department of Education was very 
helpful to charter schools in Indiana. And I sent a letter in 
late September, that you may well be aware of, where it was 
determined that there were $2.3 million in cuts to Indiana's 
public charter schools, and at a time when you didn't have 
similar cuts to the other public charter schools.
    In immediate response to that letter, the Indiana 
Department of Education reached out to the Federal Department 
of Education, and you guys very clearly and very quickly told 
them that their calculations were wrong and that they needed to 
do something about it. In fact, you set up a meeting in late 
September of those principals to charter schools, the State 
Board of Education and the Indiana Department of Education, to 
discuss that. So thank you. Thank you for your prompt action 
there.
    Now, this was where my request for help comes in, because 
since that time there's been radio silence. You know, it's not 
fair that we would penalize public school students who choose 
to go to charter schools. And if we care about these kids, we 
need to do something about it.
    And so I have a couple quick questions. One, are you aware 
of whether the Federal Department of Education has had any 
follow-up with the Indiana Department of Education on this 
issue?
    Mr. King. We are still in conversation with the Indiana 
Education Department and expect resolution of the issues. My 
understanding is that they realize that their calculations were 
in error, that they are intent on correcting them, and 
certainly we can update you on that.
    Mr. Messer. So they responded in September in response to 
your advice that they had made the error. The Indiana 
Department of Education and the State's public charter school 
organizations say they haven't had any contact. So could you 
commit to me that you will work again to bring these principals 
back together to work on this issue?
    Mr. King. Happy to do that. My understanding is that our 
team has been consulting with the Education Department on the 
necessary corrections. And I'll make sure that we follow up 
with you and figure out the best next steps.
    Mr. Messer. And to be clear, if those follow-ups have 
happened, the public charter school organization has had no 
further follow-up.
    Mr. King. Got it.
    Mr. Messer. And my understanding is the State Board of 
Education as well.
    And then lastly, you know, we're now 5 months later. We're 
approaching the end of the year. Do you have any sense of when 
these schools -- and most importantly, the students they serve 
-- can count on getting that funding?
    Mr. King. My understanding from the team is that it's 
imminent, but I will make sure that our team updates you and 
your staff on that.
    Mr. Messer. Okay. Thank you very much. Again, 
congratulations in this new appointment. You've done a very 
impressive job today, frankly, of answering on a wide variety 
of issues. And looking forward to the opportunity to work with 
you.
    Mr. King. Thank you.
    Mr. Messer. Thank you.
    And I yield back a minute, 2 seconds, Chairman.
    Chairman Kline. My absolute hero.
    Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Secretary, good morning, I guess. With all the 
destruction of students' financial futures caused by big 
predatory for-profit colleges, and with so many of the students 
now claiming fraud and demanding debt relief that could cost 
taxpayers billions of dollars, with mounting law enforcement 
investigations of these same companies, and with some of these 
companies themselves in irresponsible, precarious financial 
shape, does the Department think it makes sense to keep sending 
these companies billions of our taxpayer dollars and sending 
our students there?
    Are you taking a harder look at the continued eligibility 
of some of these companies for Title IX aid?
    Mr. King. So our task is both to protect the interests of 
students and taxpayers. We are very concerned about bad actors, 
and where we've identified bad actors, we have acted. For 
example, there's a set of schools, the Mariano schools in 
California, that were recently -- Marinello Schools, sorry -- 
that were recently closed as a result of enforcement actions 
that were taken.
    We're going to continue to do that. We have proposed in 
this budget $13 million for our enforcement unit. We are 
directing existing resources towards that enforcement unit and 
will grow the capacity of that enforcement unit.
    Mr. Takano. I'm glad to hear that. I hope I can maybe talk 
with you about, you know, just what schools are under review. 
I'm very concerned about what happened.
    I'm going to move on to the topic of Corinthian. Prior to 
its collapse, Corinthian Colleges, Inc., faced countless 
lawsuits and investigations by the SEC, the CFPB, many State 
attorneys general, and others. Corinthian has since faced two 
enforcement actions by the Department itself and lost its 
lawsuit to the CFPB. But to date, despite staggering evidence 
that the fraud at Corinthian was endemic across the chain, the 
Department has only granted relief to less than 1 percent of 
the affected students and only those who attended a single 
school, Heald College.
    When is the Department going to act to make good on former 
Secretary Duncan's promise that students would get, quote, 
``every penny of relief they're entitled to under the law,'' 
end quote?
    Mr. King. Yeah. Our Special Master Joe Smith is working 
through the requests for relief that we have currently. One of 
the key elements in the requests for relief is evidence of a 
State law violation, and so we've got to work through the 
requests that we have so far. I think the amount that's been 
granted in relief is now somewhere near $28 million already. 
But we'll continue to work through that effort as quickly as 
possible.
    We also have a regulation process underway, a negotiated 
rulemaking process underway around borrowers defense that will 
allow us to set up, we think, more efficient procedures for 
these issues going forward, because we do want to make sure 
that where students have been wronged, that they are made whole 
as quickly as possible.
    Mr. Takano. Well, many students have been defrauded and 
deceived, and there's a lot of bad actors in the industry. 
Don't you think, you know, that the gentleman from Arizona, my 
colleague's citation of graduation rates can be superficial and 
even, I think, deceptive in terms of how they portray, I think, 
a false comparison between graduation rates of a for-profit 
college, depending on the program and the accreditation of that 
school, and what goes on in a more general setting at our 
public community colleges and universities.
    Mr. King. One of the challenges in the sector is that in 
many cases institutions are running a multitude of programs. 
And some of their programs may have strong outcomes, others may 
not. We know that we have institutions that sometimes 
misrepresent the evidence of their graduation rates. And that's 
one of the reasons why our enforcement work is so important.
    Mr. Takano. So we should be skeptical about an 87 percent 
or an 85 percent -- I mean, we'd have to look at the particular 
institution.
    Mr. King. Any institution's graduation rate, I think, we 
have to make sure that they have the evidence to back that up 
and that it's consistent across programs.
    Mr. Takano. My time is up. I'm sorry.
    Mr. Chairman, I thank you.
    Chairman Kline. The gentleman's time has expired.
    Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Dr. King, thank you for joining us today.
    I wanted to focus my question on higher ed. The district I 
represent in the north country in New York State, I 
consistently hear from students, financial aid administrators, 
concerned parents that our financial aid system is overly 
complex and nonintuitive. And I believe that instead of 
confusing students, our aid system should enable individuals to 
quickly attain the skills necessary to work and to contribute 
to our economy.
    Which is why last year, along with my colleagues, Mr. 
Curbelo and Mr. Hinojosa, I introduced the Flexible Pell Grant 
for 21st Century Students Act. And I thank you for your 
positive comments on the year-round Pell bill. And I also want 
to thank my colleagues, Ms. Clark and Mr. Polis, for their 
positive comments on year-round Pell, and I encourage them to 
cosponsor this bill.
    Not only does this bill encourage students to complete 
their degrees at an accelerated pace, but the bill also directs 
the Secretary to provide annual financial aid reports to Pell 
students to help them make the right financial decisions for 
their unique situation.
    So my question for you is, in the year ahead, how do you 
intend to ensure that we are providing all students with the 
necessary counseling, especially those most in need as they 
navigate postsecondary education with a very complex student 
loan repayment program?
    Mr. King. Helping students to make good decisions about 
their course-taking, their borrowing, is critical. And then 
once students have left school, making sure that they have good 
advice and counseling around how to manage their debt is 
critical.
    A number of things in this budget that I think work towards 
that. Certainly summer Pell, the bonus for students who are 
taking 15 or more credits will help in that direction. The 
institutional bonus for institutions that ensure their Pell 
students actually graduate and complete, I think that 
institutional bonus will cause institutions to provide more of 
just the kind of support services and counseling that you're 
describing.
    We are taking steps at Federal Student Aid to try to 
simplify the process. We have made the FAFSA form itself 
simpler. We've made more information available online through 
the College Scorecard. We're moving on October 1 to an earlier 
launch date for the FAFSA and also to the use of prior-prior 
tax return to simplify the process of providing tax 
information.
    So there are good steps underway, I think, in the 
Department, but I look forward to working with you. I think 
there are some changes in law that we could make that would 
make the process even more transparent. I should also say this 
budget includes a simplification of income-based repayment, and 
certainly interested in working with you on that as well.
    Ms. Stefanik. Thank you very much. I look forward to 
working with you and the administration on this issue to 
simplify a very complex program that is causing significant 
heartburn to students and parents and administrators at our 
higher ed institutions. Thanks.
    I yield back.
    Chairman Kline. Very impressed with the cooperation here.
    Mrs. Davis, you're recognized.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you, Dr. King, for being here and for taking on 
this critical leadership position.
    I wanted to ask you particularly about teachers. I'm afraid 
I'm doing double duty here today, so I was in another 
committee. It's my understanding that you haven't spoken too 
much about teachers today, and we know that they're absolutely 
critical in a student's achievement and personal future.
    One of the issues that's critical is around teacher 
diversity and making sure that people understand why this is 
important. So perhaps you could address that.
    The other is in California, particularly, we're looking at 
a teacher shortage that's significant. And many retired 
teachers understand why that's true. And, in fact, a recent 
article basically said that most retired teachers would never 
recommend to their kids that they become teachers.
    Now, that's something that we have to be very concerned 
about. And sometimes people see this, I think, as a State 
issue, a local issue, one that the Federal Government ought not 
be involved in. So I wonder if you could address that as well.
    And then in terms of teacher professionalism initiatives, 
what are the key initiatives that you would like to not just 
engage in, but you would like to see your time in office that 
really raises the professionalism of teachers? What are the 
current programs? What more -- what can be done? Because as we 
all know, teachers are concerned that if they take on some of 
the leadership roles within schools that they would be taken 
out of their classroom even, and those are dedicated teachers 
who don't want to do that.
    Mr. King. Yeah. Thanks.
    Mrs. Davis. I'm sorry. A little bit of time to address it.
    Mr. King. Thanks for the question.
    This is a hugely important issue. I am very worried about 
the ways in which the tone around teaching, I think, over the 
last decade has led folks to feel blamed or attacked. I think 
it's scary for the country that young people are less 
interested in the teaching profession. So we have got to change 
that. That's one of my priorities for this year, is to try to 
lift up the teaching profession. I was a teacher. My parents 
were teachers. I get the role that teachers play in kids' 
lives.
    The President's budget includes a proposal called Best Job 
in the World that would dedicate a billion dollars of resources 
to a variety of initiatives around supporting teachers. That 
includes increases in the Teacher Incentive and School Leader 
Incentive Fund, because we think it's important that we attract 
highly effective teachers and principals to high-need schools.
    We think it's important to create resources for schools, 
create collaboration time for teachers. Often, you know, when 
you talk to teachers about what's frustrating about the job, 
the lack of time for collaboration with colleagues to improve 
instruction, to support students, is a major issue, a major 
working conditions issue. This billion-dollar investment would 
help to address that.
    We also dedicate resources towards Teacher and Principal 
Pathways, because we think we need innovation in teacher prep 
and school leader prep to make sure that we have a diverse 
workforce that's well prepared for the diverse classrooms of 
the 21st century.
    And we also are planning at the Department a number of 
efforts to try to lift up teacher leadership from the 
classroom. We've got the Teach to Lead program, and that's 
funded in the budget. It's a small amount of money, $10 
million, but that would help provide grants to teachers around 
teacher-led projects to improve their schools and districts.
    And then we also are doing work at the Department to try to 
lift up the issue of teacher diversity. We worry a tremendous 
amount about the lack of diversity in many places, and we want 
to make sure that districts and teacher prep programs and 
school leader prep programs are committed to recruiting diverse 
students.
    Mrs. Davis. I hear all that, and I think that's great. I 
think on the other hand we need -- it is about resources, it's 
about critical mass. So I would just encourage that as we're 
looking at that we need to make sure that we have enough 
momentum going on in schools to really be able to demonstrate 
what a great difference it makes if it's done correctly.
    Mr. King. That's right.
    Chairman Kline. The gentlelady's time has expired.
    Mr. Grothman.
    Mr. Grothman. Obviously, student debt is a huge problem out 
there. Are you in favor of allowing students to refinance their 
debt at a lower interest rate?
    Mr. King. We'd be interested in working with you on that. 
Through our Income-Based Repayment program we've tried to focus 
on for direct loans and showing that we can cap the amount of 
discretionary income that students are required to pay. But 
certainly open to talking about other strategies that would 
allow students--
    Mr. Grothman. Well, I'm just saying across the board. I 
don't like this idea of penalizing people, you know, penalizing 
certain people. Do you think it would be a good idea just in 
general to say we can refinance debt?
    Mr. King. I think if there are ways that we can help 
students to consolidate debt and take advantage of some of the 
existing direct loan programs, including the income-based 
repayment, I think that's something that we should explore
    Mr. Grothman. It's something I'd like to do. And we're, 
obviously, going to go into a very difficult budget right now. 
I realize, you know, a certain level has been agreed to, but we 
also have a dip in the economy. So income's not going to come 
in as quickly as we said.
    President Obama has proposed particularly huge mandatory 
spending increases, and even a 2 percent increase in your 
budget here. Do you have any suggestions of things you don't 
feel are as necessary in your proposed budget if we have to 
pare it back, particularly if we have to pare it back to allow 
students to refinance?
    Mr. King. We think that investments that are in this 
proposed budget will actually produce long-term savings. You 
know, if you think about the benefits of preschool for all, for 
example, we know that students who are in high-quality 
preschool are less likely to end up needing remedial services 
later.
    So that is a strategy, yes, it's an upfront investment, but 
over the long run will have a strong return on investment.
    Mr. Grothman. So your idea would be greater in debt now, 
but down the road it's going to pay for itself 20 years from 
now or something.
    Mr. King. It's the idea that if we make these investments 
in preschool, in the skills that students would get through 
community college experiences, funded through America's College 
Promise, that the long-term return to our economy justifies 
those initial investments.
    Mr. Grothman. Okay. A lot of your investments are in 4-year 
college. In my district, I am finding a lot of people, perhaps 
egged on by people giving them student loans or Pell Grants, 
are spending a significant amount of time going to a 4-year 
college and later on they wind up going back to a tech school 
because their degree, their 4-year degree, was not helpful at 
all.
    Do you have any proposals out there in which maybe we could 
prevent these kids from wasting their time in the first place 
and they can go or be pushed immediately into some sort of 
education in which they could get a job rather than wasting, to 
a certain extent, taxpayers' money, but also their own money 
and time in getting a degree that's not helpful?
    Mr. King. One of our challenges, I think, in the higher ed 
sector generally is how do we help students make good decisions 
about the relationship between their choice of school, choice 
of degree, and their long-term earnings. It's one of the 
reasons we think the College Scorecard provides helpful 
information to students, because it gives them the sense of the 
likely earnings that students would have leaving a particular 
school.
    Mr. Grothman. I don't mean to cut you off, but my chairman 
is going to bang the gavel.
    Do you agree that there are many people going for a 
traditional degree today who would be better off not going for 
that degree?
    Mr. King. You know, I think it's a broader question of 
whether our students are choosing the degree that makes the 
most sense for their life plan, and that's where I think the 
College Scorecard could be helpful. It's also where the 
institutional bonus for Pell completion rates would be helpful, 
because then institutions would be incentivized to provide more 
counseling for students on just these issues.
    Mr. Grothman. Right. Do you feel guilty if you've given a 
large student loan to somebody and they don't get a decent job 
and have to go back maybe to a tech school 5 or 6 years later? 
Does that make you feel guilty?
    Mr. King. I think as a country we have to be very aware 
that we have so many students who, A, are starting but not 
finishing, which is a huge challenge, and that there are 
students who are finishing and then not able to be successful 
in the 21st century economy. It's one of the reasons why the 
President's budget invests in efforts, joint efforts between 
education and labor to make sure that we are getting students 
into programs that help give them skills that will allow them 
to compete in the 21st century economy.
    Chairman Kline. The gentleman's time has expired.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chair.
    Mr. Secretary, thank you for being here today. Thank you 
for your testimony. You certainly have outlasted the rest of 
the committee. Congratulations on that.
    I have just one question, in fact, and I wanted to get your 
input, if I could, on the Department of Labor's proposed 
overtime rule and really your input as to what I've been 
hearing from a lot of folks in the education community that it 
would have a dramatic effect on higher ed all the way down to 
our local school districts.
    Just specifically, I've heard from a number of small 
colleges in my home State of Michigan about the potential 
negative impacts of this new rule. One college, very small, 
1,700 students, told me they could face up to a million-dollar 
increase in costs per year under this new rule.
    There are other examples across the country. As I looked 
into the issue, I found the university system of Maryland, for 
example, estimates that they could see an increase in costs of 
up to 40 million in just the first year. The University of 
Florida, which has 12 universities in all, faces a cost of 62 
million annually -- $62 million. Community colleges in Iowa 
estimate that this rule would have raised -- could have raised 
their costs in 2016 so far up to $12.6 million. That's just in 
the first quarter. There are so many examples, and I won't get 
into all of them because we have limited time, but it's of 
great concern.
    I should note that the rule will also have negative impacts 
on school employees. Many of them will be reclassified as 
hourly employees to try and deal with this rule. That would be 
considered by most as a demotion. The rule would also limit 
opportunities in the workplace, such as flexible schedules and 
career development.
    And, obviously, too this has a huge impact on the other 
side too, increasing costs for colleges and universities at all 
levels, and that trickles all the way down to everybody who's 
got to pay for colleges, students, parents, and it's really 
having a hugely devastating effect.
    And I'm not certain that this was intended to be the case, 
but I do know that it is the case, and I just wondered if you 
could give me some of your thoughts about the proposed rules 
and some of these issues that have been raised.
    Mr. King. Yeah. I mean, I would defer to my colleagues at 
the Department of Labor on the specifics of the rule. I would 
say as a general matter, whether it's issues around overtime or 
paid leave or minimum wage, I think at the end of the day 
investing in our workforce results in a stronger middle class 
that in the end then allows for more resources for higher 
education, for early education, for K-12 education.
    So in the long run, I think those kinds of efforts to 
protect employees and protect the interests of employees are 
important to the overall economy. But, again, I would defer to 
my colleagues at the Department of Labor on the specifics of 
the rule.
    Mr. Bishop. But can you at least acknowledge that there 
are, clearly, issues that have been raised and might be a real 
concern? These might be unintended consequences, but, in fact, 
they are legitimate concerns raised by colleges and 
universities and local school districts?
    Mr. King. I think colleges and universities, like other 
employers, need to develop strategies that make sense for their 
employees and for their long-term--
    Mr. Bishop. That's why they raise the issue, because 
they're trying to do that but they have limited dollars. And 
all I want is to raise the issue with you to make sure that 
it's on your radar screen so that you might have an opportunity 
to speak with Secretary Perez on the issue, because it's a real 
concern. And these are people that, obviously, you have 
jurisdiction over. They are both students, they are teachers, 
they are colleges and universities, and it's important. I just 
wanted to raise it to your attention.
    I see my time is up, Mr. Chairman, so I yield back.
    Chairman Kline. The gentleman yields back.
    All members have had a chance to engage in the discussion, 
so we are getting ready to close. And I will yield to Mr. 
Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I look forward to working with the Secretary as we address 
the challenges of early childhood education, elementary and 
secondary, and affordability of higher education.
    Mr. Chairman, we had spoken earlier about the situation in 
Flint, Michigan, and the Secretary, the Department is 
developing an appropriate response. There are a lot of things 
that need to be done. For example, early childhood education, 
the Individuals with Disabilities Education Act. A lot of early 
intervention can go a long way into mitigating the problems. 
And we need to make sure that we have a specific educational 
response so if we can do an emergency supplemental, we'll know 
what needs to be in it for the programs under our jurisdiction.
    So, Mr. Chairman, thank you for inviting the Secretary. I 
yield back.
    Chairman Kline. I thank the gentleman.
    I'd just a note, I'm sorry, obviously, people, all members 
here are rushing between hearings. Ms. Bonamici was talking 
about how Congress sets the student loan interest rates. It is 
true that in a bipartisan way, working with the administration, 
the Obama administration, a formula -- Congress was involved in 
creating a formula. But as you know, the rates are determined 
now by the market. Congress doesn't sit here and decide with a 
Ouija board, or whatever they used to do, what those interest 
rates ought to be. I just want to be clear about that.
    I want to thank you, Dr. King, for being here today. And I 
really do appreciate your willingness to come back tomorrow and 
letting us really get into a discussion of the Every Student 
Succeeds Act. Great interest to us and to you and to the 
Department and I think to people across the country, because 
we're already starting to hear from stakeholders in our States 
and districts. So we're really looking forward to that.
    And, again, good luck to you tomorrow afternoon as you move 
to the wrong side of the Capitol for those discussions.
    There being no further business, the committee stands 
adjourned.
    Mr. King. Thank you.
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Whereupon, at 12:09 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
